<html>
<title> - STATUS OF VISAS AND OTHER POLICIES FOR FOREIGN STUDENTS AND SCHOLARS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                       STATUS OF VISAS AND OTHER 
                     POLICIES FOR FOREIGN STUDENTS 
                              AND SCHOLARS 

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON RESEARCH AND
                           SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 7, 2008

                               __________

                           Serial No. 110-74

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE

40-515 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001










































                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. BRIAN BAIRD, Washington, Chairman
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            ROSCOE G. BARTLETT, Maryland
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               DAVID G. REICHERT, Washington
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
BARON P. HILL, Indiana                   
BART GORDON, Tennessee               RALPH M. HALL, Texas
                 JIM WILSON Subcommittee Staff Director
          DAHLIA SOKOLOV Democratic Professional Staff Member
           MELE WILLIAMS Republican Professional Staff Member
                 MEGHAN HOUSEWRIGHT Research Assistant


































                            C O N T E N T S

                            February 7, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Research and Science Education, Committee on Science and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................     9

Statement by Representative Vernon J. Ehlers, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    13
    Written Statement............................................    14

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    15

Statement by Representative Randy Neugebauer, Member, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........    10
    Written Statement............................................    12

                               Witnesses:

Mr. Stephen A. ``Tony'' Edson, Deputy Assistant Secretary of 
  State for Visa Service, Bureau of Consular Affairs, U.S. State 
  Department
    Oral Statement...............................................    15
    Written Statement............................................    17
    Biography....................................................    24

Dr. Harvey V. Fineberg, President, Institute of Medicine, The 
  National Academies
    Oral Statement...............................................    24
    Written Statement............................................    25
    Biography....................................................    33

Dr. Allan E. Goodman, President and CEO, Institute of 
  International Education, New York, NY
    Oral Statement...............................................    33
    Written Statement............................................    35
    Biography....................................................    55

Ms. Catheryn Cotten, Director, International Office, Duke 
  University
    Oral Statement...............................................    55
    Written Statement............................................    58

Discussion.......................................................    67

              Appendix: Additional Material for the Record

Statement of NAFSA: Association of International Educators, 
  February 7, 2008...............................................    82


  STATUS OF VISAS AND OTHER POLICIES FOR FOREIGN STUDENTS AND SCHOLARS

                              ----------                              


                       THURSDAY, FEBRUARY 7, 2008

                  House of Representatives,
    Subcommittee on Research and Science Education,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                       Status of Visas and Other

                     Policies for Foreign Students

                              and Scholars

                       thursday, february 7, 2008
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, February 7, the Subcommittee on Research and Science 
Education will hold a hearing to review the status of visas and other 
policies governing the entry into the U.S. of foreign students and 
scholars and to examine any ongoing impediments to smooth 
implementation of the policies as well as the impact that such 
impediments may be having on the U.S. scientific enterprise. In 
addition, the Subcommittee will explore recommendations for changes or 
improvements to existing policy.

2. Witnesses

Mr. Stephen A. ``Tony'' Edson, Deputy Assistant Secretary for Visa 
Services, Bureau of Consular Affairs, Department of State.

Dr. Harvey V. Fineberg, President, Institute of Medicine, The National 
Academies.

Dr. Allan E. Goodman, President and CEO, Institute of International 
Education.

Ms. Catheryn Cotten, Director, International Office, Duke University.

3. Overarching Questions

        <bullet>  What is the current status of visas for foreign 
        students? What difficulties remain for universities trying to 
        recruit top science and engineering students from abroad? To 
        what extent did significant backlogs in visa processing and the 
        perception that the U.S. was unwelcoming to foreign students in 
        the early years after 9/11 cause long-term harm to the ability 
        of U.S. universities to attract top foreign students? Are there 
        data on what is happening to foreign students who are accepted 
        to U.S. universities but choose not to enroll? Are there 
        differences across countries and regions?

        <bullet>  What is the current status of visas for foreign 
        scholars? What difficulties do universities and faculty have in 
        recruiting foreign science and engineering scholars for short-
        term appointments or research collaborations? What difficulties 
        do scientific and professional societies have in planning 
        technical meetings that include foreign scholars? What is the 
        impact on U.S. universities and the scientific enterprise more 
        broadly?

        <bullet>  Are current policies governing the flow of science 
        and engineering students and scholars across our border 
        considered to be adequate and are they being implemented 
        smoothly? If not, what changes are being proposed by the 
        stakeholders? How responsive has the Federal Government been to 
        changes and improvements proposed by the higher education and 
        scientific communities?

4. Background

Visa Policy and Process
    The United States has explicitly allowed foreign students to study 
in U.S. institutions on temporary visas since the Immigration Act of 
1924. The U.S. has also long been a magnate for foreign-born scientists 
and engineers, and many of the greatest U.S. scientific achievements 
have depended on them. But even before September 11, 2001, in 
particular after the World Trade Center bombing in 1993, concerns were 
raised about certain foreign students in the U.S. as well as the 
courses they studied and the research they conducted. As a result, 
students and scholars from certain countries or those wishing to study 
sensitive technologies were required to go through additional security 
clearances.
    To assist consular officers in determining who should be subject to 
this enhanced review,\1\ the State Department maintains a Technology 
Alert List (TAL), which establishes a list of major fields of 
technology transfer concern, such as chemical engineering and lasers, 
as well as a list of designated state sponsors of terrorism. Following 
the September 11th terrorist attacks, the State Department increased 
the number of subjects included in the TAL list significantly and added 
such sub-areas as community development, geography and urban planning. 
As a result, consular officers are requesting security clearances for 
more foreign scientists and students whose research or education falls 
into one of the TAL categories. The extra security review triggered by 
TAL is known as the Visa Mantis review, and requires the application to 
be forwarded to State Department headquarters in Washington, DC, for a 
security advisory opinion. The Office of Consular Affairs forwards the 
application to the FBI, the Nonproliferation Bureau and other agencies 
to conduct investigations before preparing the security advisory 
opinion and replying to the consular officer. The visa is approved or 
denied based on this opinion.
---------------------------------------------------------------------------
    \1\ Before proceeding to further review, those applying for a J or 
F visa (the two most common categories for students and visiting 
scholars) must first demonstrate ``non-immigrant intent'' to the 
consular officer in one's home country. In other words, the applicant 
must convince the consular officer that he/she has every intention of 
returning home after completion of studies. This requirement is 
codified in the Immigration and Nationality Act. Proposals pending in 
the 110th Congress would do away with this requirement, at least for a 
newly created category of F visa for STEM students (see H.R. 1645 and 
S. 1639, or CRS report RL31146 for an overview). Applicants are also 
screened up front for ineligibility based on criminal history or for 
certain health conditions.
---------------------------------------------------------------------------
    Assuming the visa is approved by State, a foreign student is still 
processed by three more agencies under the Department of Homeland 
Security (DHS). First, the student is inspected at the border by the 
Customs and Border Protection (CBP). The student's arrival is reported 
to the Immigration and Custom Enforcement (ICE) for entry in to the 
Student and Exchange Visitor Information System (SEVIS). After entry, 
the student's academic institution is responsible for reporting 
information to the SEVIS database. The SEVIS information is then shared 
with State, CBP, and the U.S. Citizenship and Immigration Services 
(USCIS). The latter agency is responsible for adjudicating any 
adjustments in visa status the foreign students wishes to make.\2\
---------------------------------------------------------------------------
    \2\ One of the provisions in the pending legislation mentioned in 
the previous footnote would allow students to extend from 12 to 24 
months the so-called Optional Practical Training (OPT) period, which 
gives them a grace period after graduation to seek sponsorship for and 
secure an H1-B visa, often while interning for the potential employer. 
However, a group of 19 Senators recently wrote to Secretary Chertoff 
claiming that DHS already has the authority to extend the OPT period 
without legislation: http://www.nafsa.org/<INF>-</INF>/Document/
<INF>-</INF>/
proposal<INF>-</INF>to<INF>-</INF>extend<INF>-</INF>opt.pdf
---------------------------------------------------------------------------
Foreign Students and Scholars in the U.S. Academic S&E Enterprise\3\
---------------------------------------------------------------------------
    \3\ All data in this section from either the Institute of 
International Education ``Open Doors'' 2007 report: http://
opendoors.iienetwork.org/ or NSF's 2008 Science and Engineering 
Indicators.
---------------------------------------------------------------------------
    The overall numbers of foreign students enrolled in U.S. 
institutions at all levels increased steadily during the four decades 
prior to the September 11th attacks, from 50,000 (or 1.4 percent of our 
total student population) in 1959/60 to more than 586,000 (or 4.6 
percent of our total student population) in 2002/03, just before 
creation of DHS. Congress put DHS, rather than the State Department in 
charge of establishing visa policy and reviewing its implementation. 
The resulting changes to policy and implementation, including the 
increased numbers of applicants subject to Mantis review, significantly 
slowed the visa process and made it more cumbersome for most students 
and scholars. Enrollment dropped to a low of 564,000 (or 3.9 percent of 
the total student population) in the 2005/06 academic year. The latest 
data show a rebound, with an enrollment of nearly 583,000 foreign 
students during 2006/07 academic year.\4\ Of those, 40.5 percent were 
enrolled in engineering, physical and life sciences, social sciences or 
math and computer sciences (in that order).\5\ The top three countries 
represented were India, China (PRC) and South Korea, accounting for 
36.7 percent of the total.
---------------------------------------------------------------------------
    \4\ For full timeline from 1959 to 2006, see http://
opendoors.iienetwork.org/?p=113122
    \5\ Business and Management ranked first in top fields of study for 
foreign students, at 18 percent.
---------------------------------------------------------------------------
    Nearly half of all foreign students are enrolled in graduate degree 
programs, and more than half of those enrolled in graduate programs are 
in S&E fields. In fact, foreign graduate student enrollment accounted 
for 25 percent of all U.S. S&E graduate students in 2005. The 
concentration of foreign enrollment was highest in engineering (45 
percent), computer sciences (43 percent), physical sciences (40 
percent) and mathematics (37 percent). High-tech employers are 
complaining that they can't find enough qualified U.S. citizens or 
permanent residents to fill certain high-skills jobs, and that the 
resulting demand for H1-B visas for foreign students educated in the 
U.S. far outstrips supply. The Science and Technology Committee, 
primarily through last year's COMPETES Act, has taken a lead in trying 
to increase the pipeline of U.S. students in S&E fields, but for the 
foreseeable future foreign students will continue to be represented in 
very high numbers.
    Similar trends are seen among S&E faculty. In 2003, 15.6 percent of 
all full-time S&E faculty were foreign-born citizens and an additional 
12.7 percent were non-citizens. Within research universities, 16.4 
percent of S&E faculty were naturalized citizens and an additional 16.4 
percent were non-citizens. As with students, foreign-born faculty are 
represented in even higher numbers in the physical sciences, 
mathematics, computer sciences, and engineering.
    The higher education and research communities, foreign policy 
leaders and business leaders argue that educational and research 
exchanges actually enhance rather than threaten U.S. national security 
for the following reasons:

        <bullet>  Foreign students and scholars, especially those that 
        remain in the U.S. beyond their initial studies or appointment, 
        help fill the science and engineering talent pool that fuels 
        innovation and keeps U.S. companies competitive.

        <bullet>  Foreign students help enrich the educational 
        experience of their peers while foreign scholars bring 
        different perspectives to their disciplines and to their 
        American colleagues, often initiating new research directions 
        that may lead to scientific or technological breakthroughs.

        <bullet>  Opening our doors to students and scholars who then 
        return to their home countries helps the U.S. make friends 
        around the world, and thus is an important tool in public 
        diplomacy and foreign policy.

        <bullet>  International students and their dependents, because 
        they are largely in the U.S. at their own expense, bring 
        billions of dollars to their universities and surrounding 
        communities.

Recommendations for improvements from the stakeholders
    A joint State/DHS advisory panel just released a report that, while 
not addressing S&E exchange specifically, essentially makes the same 
argument about the benefits of open borders.\6\ In the report the panel 
offers concrete recommendations to DHS and State for ways to improve 
the flow of foreigners across our border. They took a big picture view 
of the entire system, and their recommendations regarding visa policy 
and processing focus heavily on management practices and coordination 
between agencies.
---------------------------------------------------------------------------
    \6\ Secure Borders and Open Doors: Preserving Our Welcome to the 
World in an Age of Terrorism, Report of the Secure Border and Open 
Doors Advisory Committee, January 2008.
---------------------------------------------------------------------------
    The higher education and scientific communities (including the 
three non-governmental organizations represented on today's panel) 
issued a much narrower set of recommendations in May 2005 regarding 
policies for students and scholars.\7\ Those recommendations addressed 
the duration of Visa Mantis security clearances, visa renewal policies, 
visa reciprocity agreements, the ``non-immigrant intent'' requirement 
for students, the absence of a national strategy to encourage academic 
and scientific exchange, and the restrictions on access to specialized 
scientific equipment for certain foreign nationals doing unclassified 
research.
---------------------------------------------------------------------------
    \7\ http://www.aau.edu/homeland/05VisaStatement.pdf
---------------------------------------------------------------------------
    The Science Committee last held a hearing on this topic in February 
2004, when there were plenty of horror stories to go around and the 
overall numbers were still dropping. All of the stakeholders agree that 
the situation for students has improved greatly since then, with the 
numbers having rebounded to pre-9/11 levels. But concerns remain. Due 
to the lasting perception of a closed border and a cumbersome process, 
many top foreign students and scholars are simply turning to other 
countries from the start. Some countries in particular started 
recruiting heavily as the U.S. closed its borders after September 11th. 
There are questions, therefore, about the overall quality of foreign 
students entering the U.S. today, even though the quantity is back up. 
In addition, scientific societies talk of having to move their 
conferences off-shore because too many visas for international scholars 
to attend conferences in the U.S. are still denied or delayed beyond 
the date of the conference. This leads to lost income for U.S. 
conference venues and surrounding communities. Perhaps more 
importantly, due to the increased cost of travel, it significantly 
reduces opportunities for U.S. graduate students in particular to 
attend these meetings at which they exchange research ideas with their 
peers and network for future career opportunities.

5. Questions for Witnesses

Mr. Edson

        <bullet>  How does the State Department balance potential 
        security threats posed by visiting students and scholars with 
        the benefits to the U.S. of welcoming foreign scholars to 
        participate in the U.S. scientific enterprise? What steps has 
        the State Department taken in the last few years to smoothly 
        implement the resulting policy?

        <bullet>  What type of data do you collect on the number and 
        the resolution of visa applications? To what extent has the 
        frequency of visa problems, including delays and denials, for 
        foreign students and scholars improved in the last few years? 
        What policies or practices contributed to this change? How do 
        you prioritize applications when backlogs occur?

        <bullet>  What type of data do you collect on applications that 
        have triggered a Visa Mantis review based on the applicant's 
        area of study or research? What guidance and training do you 
        provide to consular staff so that they know they are applying 
        the Mantis checks appropriately?

        <bullet>  What is the status of the Internet-based visa 
        application system under development? What other changes to 
        visa policies or implementation strategies are being developed 
        or considered at this time?

Dr. Fineberg

        <bullet>  What are the benefits to the U.S. scientific 
        enterprise and to the U.S. more broadly of welcoming foreign 
        students and scholars?

        <bullet>  How have post-9/11 changes to policies that affect 
        the flow of foreign students and scholars across our borders 
        affected the U.S. scientific enterprise? To what extent has the 
        Visa Mantis process and implementation of other federal 
        policies restricting the flow of students and/or scholars 
        improved in the last few years? Are the accumulated impacts 
        from the first few years likely to be permanent or may they be 
        reversed if the system continues to improve?

        <bullet>  Does the National Academies have recommendations for 
        changes or improvements to current policies that would further 
        improve the flow of students and/or scholars without 
        compromising national security? How responsive has the Federal 
        Government been in recent years to the concerns and 
        recommendations of the National Academies and other 
        representatives of the scientific community regarding these and 
        similar recommendations?

Dr. Goodman

        <bullet>  What are the benefits to the U.S. scientific 
        enterprise and to the U.S. more broadly of welcoming foreign 
        students and scholars?

        <bullet>  Please describe the role of the Institute of 
        International Education in promoting the exchange of students 
        and scholars across our borders. How do you work with the 
        university community and with the Federal Government in 
        carrying out your mission?

        <bullet>  To what extent has the Visa Mantis process and 
        implementation of other federal policies restricting the flow 
        of students and scholars improved in the last few years? Does 
        your organization have recommendations for changes or 
        improvements to current policies that would further improve the 
        flow of students and/or scholars without compromising national 
        security? Have you made these recommendations directly to the 
        relevant federal agencies, and if so, how have they been 
        received?

Ms. Cotten

        <bullet>  How do foreign students and scholars contribute to 
        the science and engineering enterprise at your university?

        <bullet>  How have visa delays or denials affected the ability 
        of your university to recruit and retain top science and 
        engineering students from abroad? How have they affected your 
        ability to attract scholars for short-term appointments and 
        research collaborations? To what extent has this process 
        improved in the last few years? What difficulties remain? Did 
        the significant problems for foreign students and scholars in 
        the early years after 9/11 lead to long-term consequences for 
        your university?

        <bullet>  Do you have recommendations for changes or 
        improvements to current policies that would further improve the 
        flow of students and scholars without compromising national 
        security? How do you communicate your concerns and 
        recommendations to the relevant federal agencies and how 
        responsive are the agencies?
    Chairman Baird. I want to welcome all our guests and 
visitors here. I am excited about this hearing. I think that I 
have had the chance to read the testimony last night, spoke 
with our witnesses a moment ago. We actually do read your 
testimony, and in this case it was quite rewarding. I can't say 
that for all the testimony received, but this was most 
informative, very thoughtful, and very well prepared, and we 
are grateful for the time you put into it and the expertise you 
bring to the hearing and to your comments today.
    This is, as I have mentioned to you, is a friendly hearing 
and a friendly committee. We pride ourselves on bipartisanship. 
My Ranking Member, Vern Ehlers, will be here in just a moment, 
and so it is really, we look at this as an opportunity to learn 
from you what is being done that works well, what are problems, 
and what we can do better.
    The issues before us today are dealing with the status of 
visas and other policies for foreign students and scholars. Our 
subcommittee is going to focus on the role that the Federal 
Government can play in fostering international scientific 
cooperation and science diplomacy.
    As a scientist myself and as somebody who has been 
fortunate enough to travel a good bit, I think this is a 
critical element of our economic and, in fact, our defense 
security. Making sure that people interact in a constructive 
way worldwide around issues of scientific and scholarly 
exchange is one of the best things we can do to foster 
understanding and prosperity around the world.
    I have come to believe that although we are not looked upon 
as highly as we once were in many respects, countries around 
the world still respect our leadership in science and 
technology, and they admire our openness to that, and the more 
we can embody that the better. One of the ways we do this is by 
fostering collaborative research between scientists here 
domestically and foreign scientists. However, it can also be 
done by bringing foreign scientists to our country to study. 
And many scientists and engineers who enter the U.S. on student 
and scholarly visas return home and rise to prominent positions 
in their own countries and then serve as important advocates 
for our country. At the same time as some of the testimony we 
are likely to hear shortly conveys, many of, ``our own'' Nobel 
Prize winners have come from foreign countries, and many of the 
outstanding teachers and contributors to our economic 
development are originally of foreign origin. And we need to 
actually, I think, publicize that a great deal.
    While all of us on this committee, particularly Chairman 
Gordon and Dr. Ehlers are committed to increasing the pipeline 
of U.S. students in science and engineering fields, we also 
recognize that this does not necessarily mean that we should 
turn away the best and brightest from other countries. Foreign 
students help broaden and enrich the educational experience of 
their peers. Foreign scholars bring different perspectives to 
their disciplines and to their American colleagues, often 
initiating new research directions that may lead to scientific 
or technological breakthroughs.
    Today we are going to look at the Federal Government's 
policies relating to foreign students and scholars at our 
education and research institutions, and it has been about four 
years since this committee last examined this. Happily from the 
testimony we will hear there has been progress in that interim, 
and that was, of course, a fairly difficult time for this 
country to say the least. And so the progress is gratifying but 
also we will hear today constructive suggestions for 
improvement.
    The hearing will serve as the first in a series of hearings 
on scientific diplomacy. Just for the notification of my 
colleagues on both sides of the aisle, on March 12 Ambassador 
Tom Pickering and other distinguished leaders of the foreign 
policy and scientific communities will be providing an informal 
briefing, not in a formal hearing setting, but an informal 
briefing on the history of U.S. efforts in scientific 
diplomacy; what has been done, what is being done. Dr. Goodman 
has provided some very helpful comments in his testimony as 
well as Dr. Fineberg and Dr. Cotten on this.
    On April 2 current administration officials will 
participate in a hearing on current efforts within the U.S. 
Government on this area and opportunities for the future, and 
later in the year we will have a hearing with scientific 
organizations, private foundations, and representatives from 
foreign entities who are also involved in these efforts. So 
this is sort of the kickoff to one of the main, predominant 
themes of this committee for this calendar year.
    Our universities and high-tech industries, as well as some 
of our prominent foreign policy leaders have long recognized 
the value of scientific exchange, but it will take a sustained 
effort by all stakeholders to make scientific diplomacy a 
cornerstone of our foreign policy.
    I look forward to our subcommittee being part of that 
effort. In this regard, I recently had the privilege of flying 
a lead-in delegation of Members of this committee down to 
Antarctica. One of the, there is a lot of flight time, I can 
tell you, when you fly to Antarctica. Sixty-five hours in the 
air and one of the DVDs that I took was a story of Senator 
Fulbright's life, the importance, just the extraordinary 
achievements of his contribution to this country, not only the 
Fulbright Scholarship but many other ways. But that signature 
issue named after him has been of such benefit to not only the 
United States but to the world, and I want to make sure we keep 
that kind of spirit alive and that this committee continues 
this.
    [The prepared statement of Chairman Baird follows:]
               Prepared Statement of Chairman Brian Baird
    Good afternoon. Welcome to this Research and Science Education 
Subcommittee hearing on the Status of Visas and Other Policies for 
Foreign Students and Scholars.
    This year, the Subcommittee is going to focus on the role that the 
Federal Government can play in fostering international scientific 
cooperation and science diplomacy. I have spent a great deal of time 
traveling around the world and have come to learn the potential that 
science holds for building and strengthening our relationship with 
other countries. I have come to believe very strongly that, although 
the United States is not looked upon as highly as it once was in many 
respects, countries throughout the world still respect and admire us 
for science and technology. We should build on this; we should use our 
standing in this area to develop relationships and build bridges with 
other countries.
    Much of this can be done by fostering collaborative research 
between our scientists and foreign scientists. However, it can also be 
done by bringing foreign scientists to our country to study. Many 
scientists and engineers entering the U.S. on student and scholar visas 
return home and rise to prominent positions in their own countries and 
can serve as important advocates for the United States.
    In addition to improving our standing and reputation in the world, 
foreign students and scholars play an important role in our 
universities' science and engineering departments. They help fill the 
talent pools that fuel innovation and keep the U.S. competitive. While 
all of us on this committee, particularly Chairman Gordon and Dr. 
Ehlers, are committed to increasing the pipeline of U.S. students in 
science and engineering fields, we also recognize that this does not 
necessarily mean that we should turn away the best and brightest from 
other countries.
    Foreign students also help broaden and enrich the educational 
experience of their peers. Foreign scholars bring different 
perspectives to their disciplines and to their American colleagues, 
often initiating new research directions that may lead to scientific or 
technological breakthroughs.
    So, today, we are going to look at the Federal Government's 
policies relating to foreign students and scholars at our educational 
and research institutions. It's been nearly four years since this 
committee last examined the Federal Government's policies in this area.
    All of us on this committee recognize that the Federal Government 
must protect the American people from those who seek to do us harm. 
However, it is important that we review how the barriers we have 
created since 9/11 are impacting legitimate students and scholars who 
want to come to this country to study and scholars who want to come 
here for research collaborations or conferences. We must also examine 
what we are doing, or should be doing, to reduce those barriers. I am 
particularly concerned about the lasting perception that the U.S. is 
not welcoming to foreign visitors and welcome your input as to how we 
might also address that.
    This hearing will serve as the first in a series of hearings on 
science diplomacy. We are currently working to bring in such 
distinguished experts as Thomas Pickering and Norm Neureiter for an 
informal discussion on international scientific collaboration with 
Committee Members. We will follow that with hearings with senior 
government officials, scientific organizations and private foundations 
involved in these efforts. Our universities and high-tech industries, 
as well as some of our prominent foreign policy leaders, have long 
recognized the value of scientific exchange. But it will take a 
sustained effort by all stakeholders to make science diplomacy a 
cornerstone of our foreign policy. I very much look forward to our 
subcommittee being a part of that effort.
    I want to thank all of the witnesses for taking the time to appear 
before the Committee this afternoon and I look forward to your 
testimony.

    Chairman Baird. At this point I would normally defer to Mr. 
Ehlers. Mr. Neugebauer, would you like to offer his commentary 
or that of your own?
    Mr. Neugebauer. I think he is on his way, and I will enter 
my own if that is all right, Mr. Chairman.
    Thank you, Chairman Baird, and speaking of a very long 
flight, I had the privilege of accompanying the Chairman, and 
it was a very interesting flight, but there was a lot of 
airplane time on that trip.
    Thank you, Chairman and witnesses, for appearing here today 
on this important subject. This issue is a small fraction but 
no less critical than of that which is the dilemma that this 
country faces regarding immigration policy. As we sit here 
today, our country remains strongly divided over who we should 
let in and from what country, and do we place a cap on certain 
skills, and what will be the ultimate cost in dollars and 
opportunities beyond the American taxpayers? But we also know 
that this committee is a committee of good ideas, one that 
where we can all agree that science has a place in our public 
policy, and I, for one, believe that public policy based on 
science and not emotion is the best policy.
    The concerns I have over this issue do involve the 
scientific community and particularly the medical community. In 
my district of West Texas, like hundreds of other places, and 
others in Congress, it is considered rural America. Today we 
face a problem that is not just about the affordability of 
health care, but, also how to access that health care.
    It was about six months ago when I was contacted by a very 
concerned constituent of mine who called not as one who needed 
better access to health care but one who found she was 
struggling to provide it. Dr. Leighann Jenkins is a Professor 
and Chief of the Division of Cardiology at Texas Tech 
University, School of Medicine, located in my district. She 
approached me about her concerns regarding this issue, and upon 
my request I asked that she put together her thoughts for me 
for today's hearing. With the Chairman's allowance I would 
request unanimous consent to insert her statement into the 
record. Thank you.
    [The prepared statement of Dr. Jenkins follows:]
               Prepared Statement of Dr. Leighann Jenkins
                          Professor and Chief
                         Division of Cardiology
                Texas Tech University School of Medicine

 EXPANSION OF CONRAD 30 J-1 VISA PROGRAM TO MEDICAL SCHOOL FACULTY IS 
       IMPORTANT TO TEXAS TECH UNIVERSITY HEALTH SCIENCES CENTER

        <bullet>  The provisions of the current Conrad 30 J-1 Visa 
        program allowing states to waive maximum stay limits on foreign 
        medical graduates who agree to practice in medically under-
        served areas has played an important role in the provision of 
        medical services to needy patients who might not otherwise have 
        access to care.

        <bullet>  Expanding the Conrad 30 J-1 Visa program waiver 
        provisions to include U.S. medical school faculty would address 
        a need faced by many schools that are finding it difficult and 
        sometimes impossible to recruit sufficient numbers of U.S. 
        trained medical specialists into medical school teaching and 
        clinical positions.

        <bullet>  Insufficient numbers of required specialists on 
        medical school faculties can limit the ability of schools to 
        provide quality educational opportunities for residents and 
        fellows and fulfill clinical service expectations.

    Foreign medical graduates on J-1 visas are allowed to continue 
their training in the U.S. for seven years. At the end of that time, 
they are required to leave the U.S. unless they obtain a waiver to 
remain in the country. Currently, the Conrad 30 program allows states 
to waive J-1 visas to satisfy service needs in medically under-served 
areas. By allowing these physicians to extend their stay in the U.S., 
medical care is provided to many patients who might not otherwise have 
access to care. Currently U.S. teaching hospitals comprise one percent 
of the Nation's hospitals but render 55 percent of the indigent care 
provided.
    It is important to note that these foreign medical students 
typically represent the top students from their medical schools and 
many have completed specialty training before arriving in the U.S. They 
are subjected to rigorous testing (ECFMG) in the U.S. before being 
accepted and undergo careful screening and personal scrutiny before 
being allowed to continue their education here.
    Expanding the Conrad 30 program to include medical school faculties 
would be extremely beneficial to medical schools and their teaching and 
clinical service missions while fulfilling the aim of providing care to 
the medically under-served.

    Mr. Neugebauer. I will not read that statement, but I will 
just give you a few points. Leighann states, ``Insufficient 
numbers of required specialists on medical school faculties can 
limit the ability of the schools to provide quality education 
opportunities for residents and fellows and fulfill the 
clinical service expectations. Currently the Conrad 30 Program 
allows states to waive J-1 visas to satisfy service needs in 
medically under-served areas. By allowing these physicians to 
extend their stay in the U.S., medical care is provided to many 
patients who might not otherwise have access to this care. 
Currently U.S. teaching hospitals comprise one percent of the 
Nation's hospitals but render 55 percent of the indigent care 
provided.''
    So I think she brings up some extremely interesting points 
about the ability of hospitals and medical schools to be able 
to have the appropriate staffing levels to be able to continue 
to turn out medical students. And so these are medical students 
that are not necessarily foreign students, but these are 
foreign scientists and physicians in our universities that are 
helping us keep our medical schools accredited, and I think 
that is a very important point.
    And so as we move forward with this issue, Ms. Cotten, I 
appreciate in your statement, you acknowledge that we cannot 
know all that we have lost, the successes that might have been. 
And clearly with 9/11 and the original issues of the World 
Trade Center in 1993, we found a need to look at the folks that 
are in our country and where they came from and those studying 
sciences and to make sure that it is their interest in 
sciences, for the benefit of the U.S. We also know that they 
can contribute to our country as well and that not all people 
that come into this country illegally are trying to do harm. 
But the unfortunate thing is we do have to know why they are 
here and what they are doing.
    So, Mr. Chairman, I think this is going to be an 
interesting discussion, and I thank you for calling this 
hearing today.
    [The prepared statement of Mr. Neugebauer follows:]
         Prepared Statement of Representative Randy Neugebauer
    Thank you Chairman Baird, and the witnesses for appearing today on 
this important subject.
    This issue is a small fraction, but no less critical than that 
which is the dilemma this country faces regarding immigration policy. 
As we sit here today, our country remains strongly divided, over who we 
let in, from what country, do we place a cap on certain skill sets, and 
what will be the ultimate cost both in dollars, opportunities and 
beyond to the American taxpayer. But as we know, this is the committee 
of good ideas. One where we can all agree that science has a place in 
our public policy, I for one believe public policy be based on science, 
and not emotion.
    The concerns I have over this issue do involve the scientific 
community, in particular the medical community. In my district in West 
Texas, like hundreds of others in the Congress, it's considered ``Rural 
America.'' Today, we face problems not just about affordability for 
health care, but also access to health care. It was about six months 
ago when I was contacted by a very concerned constituent of mine, who 
called not as one who needed better access to health care, but one who 
found she was struggling to provide it.
    Dr. Leighann Jenkins is a Professor and Chief in the Division of 
Cardiology at Texas Tech University School of Medicine located in my 
district. She approached me with her concerns regarding this issue, and 
upon my request I asked that she put together her thoughts for me for 
today's hearing, with the Chairman's allowance, I'd like to request 
unanimous consent to insert her statement into the record. I will 
briefly read some of her statement:

         Insufficient numbers of required specialists on medical school 
        faculties can limit the ability of schools to provide quality 
        educational opportunities for residents and fellows and fulfill 
        clinical service expectations.

         Currently, the Conrad 30 program allows states to waive J-1 
        visas to satisfy service needs in medically under-served areas. 
        By allowing these physicians to extend their stay in the U.S., 
        medical care is provided to many patients who might not 
        otherwise have access to care. Currently U.S. teaching 
        hospitals comprise one percent of the Nation's hospitals but 
        render 55 percent of the indigent care provided.

    Ms. Cotton, I appreciated in your statement the acknowledgement 
that ``We cannot know all that we have lost, the successes that might 
have been.'' Clearly after 9/11, and even the original bombing of the 
World Trade Center in 1993, we found the need to take a look at 
foreigners studying hard sciences here in America, I think we may all 
agree that the last thing we want to do is train tomorrow's terrorist.

    Chairman Baird. Thank you, Mr. Neugebauer. It was a 
pleasure to travel with you, a journey like that together.
    We have been joined on the Democratic side by Mr. Carnahan 
and Mr. McNerney, Dr. McNerney, and Mr. Ehlers is recognized 
for an opening statement.
    Mr. Ehlers. Thank you, Mr. Chairman. I apologize for being 
delayed on the way over here.
    This is a very important issue. Sunday after church I was 
tackled by several of our church members precisely on this 
issue, but they were not talking about having scientists come 
here but in one case it was musicians, and in another case it 
was theologians. And the same principles apply. And so we 
should all recognize that.
    International students and scholars are an important part 
of our science and technology economy and diplomacy. Whether 
U.S. scientists and engineers are traveling abroad or foreign 
scientists and engineers are coming here, the facilitation of 
global scientific exchange is necessary to overcome many of our 
global technology problems. In this flat world we must, indeed, 
figure out a way to keep our country safe but open; but, open 
only to those with no ill intent.
    Only a small fraction of international students and 
scholars receive the opportunity to study or teach in the 
United States. The lucky ones often leave behind spouses and 
children to pursue multi-year programs and appointments. In 
recent years, some students have avoided returning home for 
long periods of time because they fear possible delays and the 
maze of red tape associated with getting back into the U.S.
    Consequently, many of these students experience personal 
hardship and sacrifice to follow their dream of studying at one 
of our institutions. I think we are all aware of the impacts 
this can have on universities and scientific progress. But the 
human factor of this issue is often overlooked. I know many of 
our witnesses have been working on a solution to this problem.
    In the post-9/11 world, the Department of Homeland Security 
and the Department of State have worked diligently to ensure 
that students who pose no security risk to the U.S. can still 
attend our higher educational institutions. Nonetheless, the 
last six years have been challenging for both students, 
scholars, and the government to find a critical balance of 
interests.
    It is encouraging to see the numbers indicating that 
international student interest and attendance at U.S. 
universities has rebounded. I look forward to hearing from our 
witnesses today about the progress and challenges still facing 
our visa system.
    I just want to add two more personal notes. First, when I 
was a student at Berkeley, we were, as scientists throughout 
the country, were eager to get Russian scientists into our 
nation, because they were very capable people, had much to 
contribute to our learning. And the Soviet government wouldn't 
let them go, and we thought it was just horrible. Now it is 
reversed. Although the union no longer exists, Russia allows 
their scientists to come here, we don't let them get in. And it 
is just absolutely ridiculous. Our country has gone 180 degrees 
on this.
    I also have a personal interest in this. My son, who is a 
scientist, married a scientist from Europe, and they are having 
incredible problems with the United States in terms of her 
coming here, her staying here, her going back to Germany for 
the summer as they are doing, and whether or not she can get 
back in. It is just horrendous the hoops that anyone has to 
jump through. If we really want to attract scientists from 
other countries, we have to deal with these problems and deal 
with them properly.
    Thank you.
    [The prepared statement of Mr. Ehlers follows:]
         Prepared Statement of Representative Vernon J. Ehlers
    International students and scholars are an important part of our 
science and technology economy and diplomacy. Whether U.S. scientists 
and engineers are traveling abroad or foreign scientists and engineers 
are coming here, the facilitation of global scientific exchange is 
necessary to overcome many of our global technology problems. In this 
flat world, we must indeed figure out a way to keep our country safe 
but open to those with no ill intent.
    Only a small fraction of international students and scholars 
receive the opportunity to study or teach in the U.S. The lucky ones 
often leave behind spouses and children to pursue multi-year programs 
and appointments. In recent years, some students have avoided returning 
home for long periods of time because they fear possible delays and the 
maze of red tape associated with getting back into the U.S. 
Consequently, many of these students experience personal hardship and 
sacrifice to follow their dream of studying at one of our institutions. 
I think we are all aware of the impacts this can have on universities 
and scientific progress, but the human factor of this issue is often 
overlooked. I know many of our witnesses have been working on a 
solution to this problem.
    In the post-9/11 world, the Department of Homeland Security and the 
Department of State have worked diligently to ensure that students who 
pose no security risk to the U.S. can still attend our higher 
educational institutions. Nonetheless, the last six years have been 
challenging for both students, scholars, and the government to find a 
critical balance of interests. It is encouraging to see the numbers 
indicating that international student interest and attendance at U.S. 
universities has rebounded. I look forward to hearing from our 
witnesses today about the progress and challenges still facing our visa 
system.

    Chairman Baird. Thank you, Dr. Ehlers. As always, very 
insightful comments and the personal experience, I think, is 
one that if you are having that experience and your family 
members are, though we have made some progress and the numbers 
I think that Mr. Edson will share with us suggests 
improvements, clearly a few anecdotes like that will circulate 
rapidly and what we won't see are the people who just don't 
even bother to apply and instead seek opportunities elsewhere. 
This committee has had hearings on the expansion of 
international, of U.S. universities overseas. We are well aware 
that increasingly foreign scholars are finding opportunities in 
the E.U., in Asia, in the Middle East, in Australia, et cetera, 
and whereas our country was once the destination perhaps most 
desired by scholars around the world, we are now, 
unfortunately, I think, not looked at that way. Not because our 
technological prowess is declined, but because it is just 
frankly oftentimes perceived to be a headache.
    Again, we are making progress there, but more progress is 
needed.
    As is the tradition of this committee, if there are Members 
who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Good afternoon. I want to thank Chairman Baird for holding today's 
hearing. Most of the Members of this committee have research 
universities and institutes in their districts, and the ability of 
international students to come the United States to study, unimpeded, 
is an important national issue.
    Deputy Assistant Secretary Edson's testimony was interesting to 
note that the number of J-1 visas issued in fiscal year 2007 for 
Guangzhou, China, rose by 51 percent, relative to 2006.
    One visit to our nation's premier universities confirms the fact 
that international students come here in record numbers. This trend is 
a testament to our nation's competitiveness in the research 
laboratories.
    Although it is unlikely that these students pose a security threat, 
the Visa Service must walk a fine line to expeditiously process the 
visa requests and ensure that our nation is safe. I would be interested 
to know what the real risks are, when it comes to researchers who come 
into this country to do their work. I would also like to know why visas 
from the Middle East have declined so sharply: is it because students 
and workers from these areas are not trying to come to our nation, or 
because they are having difficulty entering the country.
    In addition, I am glad that Dr. Fineberg of the National Academies 
has recommended that ``Cuban scholars and researchers should not be 
denied U.S. visas simply because they are employed at universities 
operated by the Cuban government or because of their political ideology 
or nationality.''
    Congressional colleagues and I have made several trips to Cuba in 
the past few years and have witnesses the negative affects on the 
citizens there of the trade and other restrictions. It is a particular 
shame that the research community has now been affected. I agree with 
the National Academies recommendations and hope that my Congressional 
colleagues and the Administration will heed their advice.
    Thank you, Mr. Chairman. I yield back the balance of my time.

    Chairman Baird. And at this time I would like to introduce 
our witnesses, and I will apologize in order that we hear more 
from you we will keep your resumes shorter than they deserve. 
They, you are all extraordinarily impressive individuals, and 
so the introductions will be rather brief.
    Mr. Stephen ``Tony'' Edson is the Deputy Assistant 
Secretary for Visa Services in the Bureau of Consular Affairs 
at the Department of State. Dr. Harvey Fineberg is the 
President of the Institute of Medicine at the National 
Academies. Dr. Allan Goodman is President and CEO of the 
Institute of International Education, which actually oversees 
the aforementioned Fulbright Program is my understanding. And 
Ms. Catheryn Cotten is the Director of International Office at 
Duke University and has had personal dealings with I don't know 
how many thousands it sounded like from your testimony of 
students dealing and scholars, dealing with the very issues we 
will hear from today.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which Members of the Committee will 
have five minutes each to ask questions, and we would like to 
start with Mr. Edson, and we appreciate, again, very much your 
time. Mr. Edson.

 STATEMENT OF MR. STEPHEN A. ``TONY'' EDSON, DEPUTY ASSISTANT 
    SECRETARY OF STATE FOR VISA SERVICE, BUREAU OF CONSULAR 
                 AFFAIRS, U.S. STATE DEPARTMENT

    Mr. Edson. Thank you very much, Chairman Baird, Ranking 
Member Ehlers, and Members of the Committee for allowing me the 
opportunity to give you an update on the status of the 
Department of State's visa procedures for foreign students and 
scholars.
    I am happy to report that we are working diligently to 
streamline the process to attract the best and the brightest 
foreign students and scholars to the United States while 
maintaining the high security standards vital to protect this 
nation. The Department is aware of the particular interest this 
committee has had with regard to these applicants, and we 
appreciate your support in our efforts to improve and expand 
visa services for them.
    Foreign students contribute over 13 billion annually to the 
well-being of this country. Their work significantly boosts our 
academic and scientific research, and their exposure to our 
culture and freedoms is a crucial public diplomacy success. In 
fiscal year 2007, we issued over 10 percent more student and 
exchange visitor visas than in the previous year, in 2006, and 
we surpassed 2001 levels for student and scholar visas by 16 
percent. At some of our busiest posts the number of student 
visas grew even more dramatically. For example, in China the 
numbers were up 38 percent in Beijing and 51 percent in 
Guangzhou over fiscal year 2006 totals, and in India, the 
largest source country for foreign students, student visa 
issuances in Mumbai increased by 55 percent and in Chennai by 
34 percent.
    We are moving quickly to make our entire visa process more 
electronic through an online visa application process, an 
online appointment system, which 70 of our posts are currently 
using in its first form, and online fee payment. A fully 
electronic process will provide for more accurate and 
verifiable information, allow for fraud screening in advance of 
interview when it is necessary rather than afterwards, and 
increases convenience for applicants, allowing them to make 
arrangements from the United States before they travel, for 
example, and standardizing the process worldwide.
    We issued guidance in January of this year to allow 
consular officers to waive the visa interview for some 
categories of renewal applicants who have previously provided 
ten fingerprints, been interviewed, and received visas. This is 
an authority authorized under the Intelligence Reform Act that 
we are finally able to take advantage of because of our ten 
fingerprint collection process. Eligibility for the exception 
to interview includes student and exchange visitor visa 
applicants applying for the same program of study within one 
year of expiration of the previous visa, again, after the ten 
prints have been collected.
    For the approximately three percent of our applicants who 
actually require additional review and clearance through the 
Washington agencies back here, that process now averages about 
14 days for the Visas Mantis, which is the most common 
screening method that might be applied to students, and it is 
important to note that that interagency clearance process 
actually, although it is perceived to be a major issue, applies 
to a very small fraction of students and scholars around the 
world.
    The State Department continues to coordinate an annual 
interagency review of the technology alert list, which is the 
tool that drives that Visas Mantis screening process, and 
established two years ago a permanent interagency Security 
Advisory Opinion Requirements Review Board, a mechanism that 
could formally look at that process and others on an ongoing 
basis to make sure that they are given the rigorous, continuous 
review and improvement that they deserve.
    Since September, 2001, we have created 570 new consular 
officer positions around the world. It is about an 18 percent 
increase in our adjudication staff. We were able to work with 
our partners at DHS to increase to 120 days the amount of time 
before studies begin that a student can apply for a visa, thus 
moving that summer rush period earlier into the late spring, 
and we do post and update visa appointment wait times on the 
Internet for all of our applicants. We provide expedited 
appointments for students in any event so that they are able to 
get their visas or get their interviews in time to attend the 
beginning of classes.
    We continue to look to the future, particularly efforts to 
further leverage technology and biometrics in the visa process, 
to further improve security and facilitation for legitimate 
travelers. And I am happy to discuss any of those initiatives, 
of course, that are of interest to the Committee.
    We have shown steady increases in the number of students 
coming to the U.S. over the past several years through our 
efforts to work with the scientific and academic research 
communities, to be as responsive as possible to their need, 
which maintaining the integrity of the visa process.
    And we appreciate your continued interest in our work.
    [The prepared statement of Mr. Edson follows:]
            Prepared Statement of Stephen A. ``Tony'' Edson
    Thank you very much, Chairman Baird and Members of the Committee, 
for allowing me the opportunity to give you an update on the status of 
the State Department's visa policy and procedures for foreign students 
and scholars. My. colleague, the Consular Bureau's Principal Deputy 
Assistant Secretary Janice Jacobs, has presented testimony in 2003 and 
2004 on this same subject. I am happy to report that, while our 
commitment to security has not diminished, we have worked diligently to 
streamline the process to attract and bring the best and brightest 
foreign students and scholars to the United States. The Department is 
aware of the particular interest this committee has with regard to 
these students, and we appreciate your support of our efforts to 
improve and expand visa services for students.
    Foreign students contribute over $13 billion annually to the 
economic well-being of this country. Their work significantly boosts 
our academic and scientific research and their exposure to our culture 
and freedoms is a crucial public diplomacy success. Although foreign 
governments, prospective students, and educational associations 
continue to say publicly that the visa process is a serious hindrance 
to student and exchange visitors, the numbers tell a different story: 
we have issued more than ever before. In 2007, we issued ten percent 
more business, student, and exchange visitor visas than last year. In 
some of our busiest posts, the rate of increase has been far greater. 
And we have surpassed 2001 levels for student and scholar visas by 
90,000, or 16 percent. All of this progress has come despite 
competition from schools in Europe, Canada, and Australia with lower 
tuitions and aggressive recruiting program.
    Exchange visitor numbers have risen to historic highs. In FY 2007, 
we issued 343,946 J-1 visas, 11 percent more than the same period in FY 
2006, and we have exceeded our FY 2001 levels by 82,000 visas. The same 
is true for vocational student visas, where we have exceeded our FY 
2001 levels by an incredible 71 percent.
    At some of our busiest posts, the number of student visas grew even 
more dramatically. For example, in China, the number of student visas 
issued increased by 38 percent in Beijing and 51 percent in Guangzhou 
over FY 2006 totals. In India, the largest source country for foreign 
students, student visa issuances in Mumbai increased by 55 percent and 
in Chennai by 34 percent. At another historically high student visa 
post, Seoul, Korea, the number of student visas issued increased seven 
percent. Student and exchange visitor visa issuances in many Middle 
East posts also continue to increase, though they are still about six 
percent below 2001 levels.
    Let me specifically address the several questions you posed in your 
invitation letter. Then I will conclude with an overview of the current 
outlook for visa policies for students and scholars.
    We pursue the dual goals of keeping our country safe and of 
welcoming qualified students, and both are important. A policy of 
``secure borders, open doors'' is not a contradiction: we can and must 
guard our country against threats to our security and sensitive 
technology, while at the same time facilitating legitimate travel. In 
fact, the State Department supports facilitation of international 
education as a matter of national security. The value of the 
interpersonal exchanges and cross-cultural understanding that come 
about through international education helps to create a more stable 
world.
    We employ the same safeguards against security threats from 
prospective students and scholars as we do for all visa applicants 
through a number of name-based and biometric checks: each applicant's 
fingerprints are checked against the interagency IDENT database of 
qualified travelers, suspected terrorists, international criminals and 
immigration violators, and, as of January 1, are also screened through 
the FBI's IAFIS criminal database. All visa applicant photos are also 
screened against a facial recognition database of suspected terrorists 
and visa violators. Each visa applicant's name and biodata are also 
checked against a name-based database with over 32 million interagency 
entries. In addition, for certain types of travelers, including 
students and scholars with expertise in fields of nonproliferation 
concern, we require an interagency analysis of their application data, 
called a Visas Mantis clearance.
    We are also facilitating students and scholars by continuing to 
make our process more transparent and efficient. We have taken several 
steps to improve the process:

        1.  The State Department has instructed posts to make students 
        a priority so that they may travel in time to begin their 
        course of study. All posts have procedures in place to expedite 
        student and scholar applicants, even on short notice. Having 
        focused on cutting wait times for interviews, I can report that 
        90 percent of our posts have wait times of less than 30 days 
        for student and business travelers. Our goal is to be closer to 
        100 percent of posts at the 30-day or less level by the end of 
        this year.

        2.  We are moving quickly to make our entire visa process more 
        electronic through an online visa application process (further 
        discussed below), an online appointment system (which over 70 
        posts now use), and online fee payment. A fully electronic 
        process provides more accurate and verifiable information, 
        allows for fraud screening in advance of the visa interview, 
        increases convenience for applicants, and standardizes the 
        process worldwide.

        3.  We issued guidance in January 2008 to allow consular 
        officers to waive the visa interview for some categories of 
        renewal applicants, who have previously provided 10 
        fingerprints, been interviewed and received visas. Under INA 
        222(h), consular officers may waive the interview requirement 
        for applicants applying at the consular post of their usual 
        residence, who are applying for a visa in the same visa class 
        as their current visa, who have not been refused a visa, and 
        who present no national security concerns requiring an 
        interview. Those eligible for the exception to the interview 
        requirement include student and exchange visitor visa 
        applicants reapplying for their same program of study within 
        one year of the expiration of their existing visa. This means 
        that if students or exchange visitors are eligible for a waiver 
        of the interview and have already provided ten prints in a 
        previous NIV application, the consular officer may waive the 
        interview and issue a visa without requiring those applicants 
        to appear in person or provide new prints. This process will 
        allow us to focus our interviews on the highest-risk applicants 
        while facilitating the visa renewals of legitimate travelers.

        4.  For the approximately three percent of our applicants 
        requiring additional review and clearance, we improved the 
        interagency clearance process, which now averages 14 days for 
        the most common student clearance, the Visas Mantis. The State 
        Department reviews the Technology Alert List each year, 
        eliminating those items which do not appear to pose a risk and 
        adding any new areas of concern. The Security Advisory Opinion 
        Requirements Review Board (SAORRB) is a permanent interagency 
        management structure to oversee and continually improve the 
        process of visa issuance. For instance, in May 2007 the SAORRB 
        agreed to change the Visas Eagle clearance (used for immigrants 
        from certain former and current Communist countries, 
        eliminating over a quarter of the total number of clearances 
        yearly.

    As the number of potential students continues to grow, we have to 
work harder to increase the transparency, efficiency, and 
predictability of the visa process across the board, with a special 
focus on student and exchange visitor visas. Here are just some of our 
initiatives:

        <bullet>  Since September 2001, we have created 570 new 
        consular positions to handle a growing visa demand and the 
        added security measures in our visa adjudication process.

        <bullet>  As part of the Rice/Chertoff Joint Vision, students 
        can now apply for visas up to 120 days before their studies 
        begin.

        <bullet>  We post and update visa appointment wait times on our 
        Internet website. When our wait times increase, which often 
        occurs in the busy summer months, all posts give students and 
        exchange visitors priority.

        <bullet>  All of our Embassies and Consulates expedite student 
        and exchange visitor visa applications, to ensure no qualified 
        student is denied the opportunity to be issued a visa in time 
        to start his or her program. In addition, student and exchange 
        visitor applications are given top priority in the clearance 
        process, should additional clearances be necessary.

    Applicants subject to the Visas Mantis process are required to 
provide additional documentation that helps Washington, DC reviewers 
obtain a clearer sense of an applicant's background and reason for 
travel. As appropriate in individual cases, these documents normally 
include:

        (1)  Complete resumes (and, if accompanying the applicant, a 
        professional spouse's resume);

        (2)  Complete list of publications of the applicant (and, the 
        spouse's publications if required);

        (3)  List of references in the applicant's country of birth or 
        residence;

        (4)  Detailed descriptions of the applicant's proposed research 
        or work in the U.S.;

        (5)  Letters of invitation from the U.S. sponsor;

        (6)  Letters of recommendation from a U.S. source or from 
        abroad;

        (7)  Letters of support from the financial sponsor; and

        (8)  Detailed itinerary.

    The Department provides a variety of training opportunities and 
other resources to our consular officers in Washington and in the 
field. A Visas Mantis component is included in the basic consular 
training course, and country-specific briefings are offered to officers 
en route to posts with significant Mantis volume. The Bureau of 
Consular Affairs, working with the Foreign Service Institute, is 
developing online consular refresher courses, including a module on the 
Visas Mantis process. These training modules will be rolled out in 
early 2008, and available worldwide.
    In addition to formal training courses and briefings, the 
Department provides ongoing guidance to posts on Visas Mantis issues, 
including more than 25 video-conferences with dozens of Foreign Service 
posts. While most of the Visa Mantis dialogue takes place with the 
relatively small number of very active Visas Mantis posts, any post may 
query the Visa Office about a Mantis case or a more general Visas 
Mantis issue. The Visa Office also maintains a designated Visas Mantis 
web page available worldwide containing numerous online references.
    We are continuing to put new systems in place to improve our visa 
processing efficiency. We are currently developing a Consolidated Visa 
System, which will incorporate all of our current non-immigrant (NIV) 
and immigrant visa (IV) processing systems into one. The consolidated 
visa system will improve information and work flow data reporting, 
thereby boosting the Department's ability to manage and standardize 
visa processing with our consular managers in the field.
    We are also moving towards all-electronic correspondence. For 
instance, our National Visa Center already does the bulk of its 
communication with IV petitioners and applicants electronically, which 
saves hundreds of thousands of dollars on printing and postage costs. 
We hope to make correspondence for the Diversity Visa (DV) program 
fully electronic by 2009.
    Once we have an online NIV application, we will have a wealth of 
electronic information about our applicants. We plan to perform some 
fraud and security screening in advance, for instance to verify the 
applicant's U.S. contacts, including company and petitioner checks. 
These checks could include automated corroboration of applicant data, 
searches of relevant DHS records, and searches in U.S. visa records to 
identify issues that require closer examination.
    This online NIV application will be linked to an online appointment 
system and require fee payment online. In Mexico this year, along with 
the pilot of the online NIV application in Mexico, we will pilot the 
collection of ten prints off-site at a secure facility, another way we 
are working to simplify our procedures while keeping security 
paramount.
    We are also developing procedures to interview by video-conference, 
or by sending an officer to perform some interviews off-site. Legal and 
practical issues need to be resolved before we can deploy these 
technologies, but we continue to explore strategies for deployment in 
the interim. Our work in this area has already provided solutions for 
expanding services we can offer through out-sourcing strategies.
    We continue to discuss with DHS/USCIS the move toward a 
consolidated electronic process for handling visa applications 
requiring USCIS-approved petitions. We are working with USCIS' 
Transformation Program Office to be sure that our plans are aligned to 
create a uniform, person-centric immigration process. For instance, we 
already share USCIS petition information electronically with posts, 
through a program called PIMS.
    Thank you again for the opportunity to be here. We appreciate the 
Committee's continued interest in our work. I would like to note that 
we publish general visa statistics on issuances and refusals, by 
category and region, each year on our public website: 
www.travel.state.gov and would like to submit for the record copies of 
our latest statistics. I am pleased to take your questions.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                Biography for Stephen A. ``Tony'' Edson
    Stephen A. ``Tony'' Edson joined the United States Foreign Service 
in 1981 and is currently serving as Deputy Assistant Secretary of State 
for Visa Services in the U.S. State Department's Bureau of Consular 
Affairs. Prior to that, Mr. Edson served as Managing Director of Visa 
Services and Senior Advisor for Strategic Planning to the Visa Services 
Directorate from 2001 until 2005. He served as Consul General at the 
U.S. Embassy in Jakarta, Indonesia from June 1998 until January 2001. 
He has also held overseas diplomatic assignments in Naha, Tokyo, 
Bangkok, and Mumbai.
    Mr. Edson graduated from the University of Kansas with a B.A. in 
East Asian Language and Culture in 1980. He holds a Master's in 
Management from the Sasin Graduate Institute of Business Administration 
at Chulalongkorn University, Bangkok, Thailand and a Master's of 
Science degree in National Security Strategy from the National War 
College, Ft. McNair, Washington, D.C.

    Chairman Baird. Dr. Fineberg.

 STATEMENT OF DR. HARVEY V. FINEBERG, PRESIDENT, INSTITUTE OF 
                MEDICINE, THE NATIONAL ACADEMIES

    Dr. Fineberg. Thank you very much, Chairman Baird, Ranking 
Member Ehlers, and Members of the Committee. It is a pleasure 
for me to have the privilege to spend this time with you, and I 
want to use my oral testimony to supplement and reinforce the 
written testimony that I submitted previously.
    Just this morning before coming over to the hearing I had a 
meeting at our offices at the National Academies with a 
delegation from Croatia. The delegation was here in part 
because the minister of science, education, and sports, a great 
collection of responsibilities I thought, was invited by the 
President to attend the prayer breakfast this morning. To the 
minister this was an enormous privilege and greatly 
appreciated. What struck me was that this minister was an 
individual who was trained in Croatia but had spent time as a 
student in the United States, had come back to spend some time 
on a faculty and to teach in the United States. He had taken 
back to his home in the position of responsibility that he now 
has, the values and the lessons, as well as the technologic 
expertise that he gained during his time in the United States.
    That is a story which is repeated for me personally scores 
of times every year, and it is repeated around the world 
literally thousands of times. The good that we are doing, not 
just for the world, but in the enlightened self-interest of the 
United States in keeping our doors open to the kind of 
students, scientists, and scholars represented by this 
minister, is incalculably good in ways that vastly overshadow 
the $13 billion of revenues that the students from overseas 
bring to the United States.
    It is imperative for our own interest that we maintain the 
opportunity for individuals around the world to spend this time 
in the United States, to gain not only their own professional 
knowledge, but to bring to us the benefit that they have in the 
ways that you, Mr. Chairman, and Mr. Ehlers both cited, as did 
Mr. Neugebauer in his opening remarks today.
    We have done a lot of things better than had been true 
years ago after 9/11, and the improvements that Mr. Edson 
recited are notable and laudable. In particular, I want to take 
special note of the point he made of the decision in January to 
authorize our consular officers to issue to renewal applicants 
who satisfy certain criteria a visa without the requirement for 
an interview. This is an important step forward, and it is an 
example of the kind of clear-headed, straightforward 
adjustments that we can make that will simultaneously keep our 
borders secure and open our doors to students and scholars from 
overseas.
    The challenge that we have is great because we need to 
focus our resources where the risks are highest and not have a 
uniform approach to every applicant from every corner of the 
world. And it is by using this kind of selective decision-
making that we can do that.
    We should be doing more. For example, we should be able to 
find a way to domestically reissue student and exchange visitor 
visas for those who have remained here in the United States in 
status and are applying again for the same visa application. We 
ought not to require those individuals to leave the United 
States. It is hard for me to understand why they can be better 
assessed in Bulgaria than they can in Boston for the security 
interests of our country.
    We applaud the review of the technology alert list. We 
believe that that review also should be conducted with the 
engagement of outside scientists, engineers, and experts so 
that the Department can take advantage of the best thinking of 
what really represents today a list of relevant expertise that 
ought to be carefully judged.
    And we also believe that some of our requirements should be 
explained more clearly to applicants and to our consular 
officers, particularly what is called Section 214(b), a section 
that requires visitors to demonstrate that they do not intend 
to immigrate illegally.
    Thank you very much, Mr. Chairman. I look forward to your 
questions and to the discussion today.
    [The prepared statement of Dr. Fineberg follows:]
                Prepared Statement of Harvey V. Fineberg
    Good afternoon, Mr. Chairman and Members of the Committee. My name 
is Harvey Fineberg, and I am President of the Institute of Medicine 
(IOM). Chartered in 1970 and a component of the National Academies 
(which also includes the National Academy of Sciences, National Academy 
of Engineering, and National Research Council), the IOM provides 
unbiased, evidence-based, authoritative information and advice 
concerning health and science policy to policy-makers, professionals, 
leaders in every sector of society, and the public at large.
    I am pleased to have the opportunity to testify today to remind 
Members of this committee of the important contributions foreign-born 
scholars, scientists, and engineers have made and continue to make to 
this country. Foreign-born scientists and engineers have come to the 
United States over the years, stayed in large numbers, and we are more 
prosperous and more secure, in large part, because of them.

Importance of Foreign Scientists and International Collaborations

    Fifty years ago, many of the United States' scientific leaders came 
from Europe. There are the famous names like Einstein, Fermi, and 
Teller (without whom we might not have been the first to build the 
atomic and hydrogen bombs), von Braun (without whom we would not be 
ascendant in rockets and space), and von Neumann (without whom we might 
not be leaders in computing and information technology). But there are 
dozens more names, like Bethe and Godel, who may not be known to the 
general public, but who formed the backbone of American science and 
engineering--plus an enormous number of journeymen scientists and 
engineers whose individual contributions will never be celebrated, but 
without whom the United States would be neither as prosperous nor as 
secure as it is.
    Today, it is not just Europeans who contribute to our prosperity 
and security; the names are like those of Praveen Chaudhary (former 
Director of Brookhaven National Lab), Venkatesh Narayanamurti (Dean of 
the Division of Engineering and Applied Sciences at Harvard), C.N. 
Yang, (Nobel Laureate physicist, from the Institute for Advanced Study 
in Princeton), Katepalli Sreenivasan, (recent Director of the Institute 
for Physical Science and Technology at the University of Maryland, and 
current Director of the Center for International and Theoretical 
Physics); and Elias Zerhouni (Director of the National Institutes of 
Health).

Importance of International Students

    International exchanges of students and skilled professionals can 
benefit both the sending and receiving countries. Certainly, the U.S. 
science and engineering research enterprise depends critically on 
international students and scholars.
    The United States has relied upon a steadily growing influx of 
graduate students and postdoctoral scholars from throughout the world. 
International students now constitute more than a third of U.S. science 
and engineering (S&E) graduate school enrollments, up from less than a 
quarter in 1982. More than half of the S&E postdoctoral fellows are 
temporary residents, half of whom earned a doctorate degree outside the 
United States.\1\ Including undergraduates, more than a half million 
foreign citizens are studying at colleges and universities in the 
United States.
---------------------------------------------------------------------------
    \1\ National Science Board. 2004. Science and Engineering 
Indicators, 2004 (NSB 04-2), Arlington, VA: National Science 
Foundation.
---------------------------------------------------------------------------
    Many of the international students educated in this country choose 
to remain here after receiving their degrees. More than 70 percent of 
the foreign-born S&E doctorates who received their degrees in 2001 
remained in the United States for more than two years.\2\ These skilled 
migrants are an important source of innovation for the U.S. economy.
---------------------------------------------------------------------------
    \2\ M.G. Finn. 2003. Stay rates of Foreign Doctorate Recipients 
from U.S. Universities, 2001. Oak Ridge, TN: ORISE.
---------------------------------------------------------------------------

Importance of International Scientific Exchanges

    Equally important, but often lost in this discussion, are short-
term visits of international scientists to the United States. Many of 
these individuals are prominent researchers, officers in international 
scientific organizations, or members of their national academies of 
science. Many are invited speakers or presenters at scientific meetings 
or need to come to the United States to consult with partners on 
collaborative projects. Many have been to this country a number of 
times in the past. They are reasonable, intelligent people, and the 
kind of people our country wants as friends.
    Unfortunately, we are alienating them one at a time. Some of our 
visa policies simply do not make sense to them, and they become 
irritated enough with their experiences that they vow not to return to 
the United States, and unfortunately, they tell their colleagues about 
their experiences.
    When enough people have concerns, we lose the goodwill of our 
partners, and meetings begin to be held outside of the United States. 
Even before the ICSU President Goverdhan Mehta encountered difficulties 
obtaining a U.S. visa in 2005, the International Council of Sciences 
was reluctant to encourage meetings in the United States. In 2007, the 
International Union of Pure and Applied Chemistry (IUPAC) debated long 
and hard whether to hold the 2011 General Assembly in Puerto Rico or 
Turkey. Puerto Rico narrowly won, but the debate focused on U.S. visa 
policy, and particularly whether scientists, especially those from 
Cuba, will be able to get the necessary U.S. visas to attend.

The National Academies' International Visitors Office

    The National Academies' International Visitors Office (IVO), funded 
by the presidents of the National Academy of Sciences, the National 
Academy of Engineering, and the Institute of Medicine, assists 
international scientists in their efforts to come to the United States 
for meetings and other collaborations. The office works closely with 
the Office of Consular Affairs at the State Department. Personnel there 
have been extremely responsive to our concerns, and we commend that 
office for its work.
    The IVO collects information on large scientific meetings in the 
United States and forwards that information to the State Department for 
distribution to embassies and consulates worldwide. Since 2003, the IVO 
has registered 420 meetings, 104 in 2007 alone. The IVO also provides 
meeting organizers with general information on the visa process, advice 
on what applicants can do in the event of a visa delay or denial, and 
individual assistance to their attendees as needed.
    In addition, the IVO:

        <bullet>  Maintains a Web-based questionnaire to collect 
        information on visa difficulties experienced within the 
        scientific community;

        <bullet>  Reviews and analyzes data collected to report 
        relevant statistics on the nature and scope of the problem;

        <bullet>  Maintains contact with the Department of State, the 
        Department of Homeland Security, and other agencies that either 
        administer visa programs or work with visa-related issues; and

        <bullet>  Works directly with the State Department's Office of 
        Consular Affairs to resolve specific cases.

    From the fall of 2002 through the end of December 2007, 5,878 cases 
have been reported to the IVO, and almost 900 of these were in 2007 
alone. One of our primary messages is APPLY EARLY, yet still there are 
problems. For example, the International Union of Pure and Applied 
Biology (IUPAB) will have its 16th International Biophysics Congress in 
Long Beach, California on February 2-6. As of January 25, many of the 
30-member Chinese delegation were still awaiting their visas, including 
the head of the delegation, a man who will be on the ballot for IUPAB 
President.
    I wish I could say that this delegation's experience is unique. 
Unfortunately, it is not. Over and over, we hear of prominent 
scientists who have not received a decision on their visas with only 
days left before a meeting. They end up canceling flights, and losing 
money on meeting registrations and hotel reservations. We also continue 
to receive regular reports from scientists who receive their visas 
after the meeting has passed. None of this engenders goodwill toward 
the United States.
    Other complaints that we hear regularly are:

        <bullet>  Difficulty scheduling visa interviews, and long waits 
        once scheduled;

        <bullet>  Denial of visas due to ``lack of ties'' to home 
        country despite clear evidence of scientific employment;

        <bullet>  Delays due to security clearances;

        <bullet>  Delays despite all documents being in order;

        <bullet>  Inability to extend J-1 visas from within the United 
        States; and

        <bullet>  Arrogant and rude treatment upon entry to the United 
        States by immigration and customs officials.

The Impact of 9/11 and Globalization

    To be sure, 9/11 and globalization have changed the balance point. 
Both have caused the United States to fundamentally rethink our 
policies, but we need to make sure that new policies put into place 
make sense and do not do more harm than good. The international image 
of the United States has been one of a welcoming ``land of 
opportunity''; we are in the process, however, of replacing it with one 
of a xenophobic, suspicious, fearful nation. The policies that 
superficially appear to make us more secure also are, ironically, 
having the opposite effect.
    Protecting Americans from threats obviously must be a high 
priority, but real security will be achieved only by a proper balance 
of excluding those who would harm us and welcoming those who would do 
us good, by a proper balance of openness and secrecy. With selected, 
thoughtful changes to U.S. policies, we can achieve both goals, making 
our homeland safer and our economy stronger.

Ensuring Security

    The National Academies agrees that the Nation must take precautions 
to ensure security. If visits by foreigners to the Unites States are 
considered especially at risk, then the system must be protected with 
the technologies, information, and resources needed to do a proper job. 
Anything less, and the system remains vulnerable. Some visa 
applications must be carefully subjected to expert scrutiny to ensure 
our national security, but the level of security must be tailored to 
the magnitude of the risk. This can be done by educating and training 
staff and keeping security procedures focused and streamlined. We need 
to determine where protection is essential--and then protect those 
areas vigorously.
    The current system:

        <bullet>  Fails to identify the most vulnerable points of the 
        system (everyone interviewed);

        <bullet>  Spreads resources too thin by treating all applicants 
        as equal threats (thereby preventing in-depth interviews);

        <bullet>  Does not manage information well--does not have 
        necessary focus on identifying those who pose the biggest 
        threat (more security does not make us more secure; better 
        management does);

        <bullet>  Lowers people's sensitivity to the most critical 
        elements of the system;

        <bullet>  Builds ill-will against the United States through 
        repetitive processing of those with a good track record; and

        <bullet>  Diverts resources from monitoring those who pose a 
        higher risk.

    Security in the broadest sense must be achieved through 
accumulation of new knowledge and the wise application of it. If we 
include too many applicants in the security review procedures, then the 
bureaucratic burden in guarding the entire system becomes excessive--
leading to inefficiencies, delays, and security risks. The United 
States needs to recognize what is important to secure and what is of 
limited or marginal significance, and respond appropriately. Not 
everyone is of equal risk.

Academic Visits and Exchanges With Cuba

    I also would like to say a word about Cuba. Section 212(f) of the 
Immigration and Nationality Act of 1952, as amended, authorizes the 
President to deny entry ``of any class of aliens into the United States 
[who] would be detrimental to the interests of the United States.'' 
President Ronald Reagan built on that policy, and, in Presidential 
Proclamation 5377, restricted the entry into the United States of 
officers or employees of the Cuban Government or the Communist Party of 
Cuba. Since all education and research institutions in Cuba are State 
entities, as are many public universities in the United States, 
scientists and scholars are denied entry into the United States solely 
because their employer is the Cuban state.
    The policy has been unevenly applied through the years, but has 
been strictly enforced since 2004 when Congress and the Administration 
made democracy in Cuba a high national priority. From January through 
October 2004, only five professors from the University of Havana were 
granted visas to travel to the United States in response to invitations 
to give classes and lectures, or for research visits. Prior to 2004, 
approximately 25 university faculty members traveled each month to the 
United States for such visits.\3\
---------------------------------------------------------------------------
    \3\ Retreat from Reason: U.S.-Cuban Academic Relations and the Bush 
Administration. Latin America Working Group Education Fund, Washington, 
DC, 2006.
---------------------------------------------------------------------------
    In fall 2004, more than 60 Cuban scholars were denied visas to 
attend the XXV International Congress of the Latin American Studies 
Association (LASA) held October 7-9, 2004 in Las Vegas, Nevada. Their 
applications had been pending since May. In early 2006, 58 Cuban 
scholars and researchers were denied visas to attend the XXVI LASA 
Congress in San Juan, Puerto Rico.
    In explaining the 2004 decision, State Department spokesman Richard 
Boucher made clear that the visas had been denied ``as a group'' on 
political grounds:

         [T]he primary purpose of denying these visas is . . . to bring 
        the pressure on the Cuban Government and on people who are 
        employed by the Cuban Government so that they understand that 
        their treatment of people in Cuba has implications. . .\4\
---------------------------------------------------------------------------
    \4\ State Department Daily Press Briefing, Washington, DC, October 
7, 2004, http://www.state.gov/r/pa/prs/dpb/2004/36917.htm

    Denials of Cuban visa applications have become routine. A letter 
from Bengt Gustafsson, Professor of Theoretical Astrophysics at the 
University of Uppsala, Sweden and Chairman of the International Council 
for Science's Committee on Freedom and Responsibility in the Conduct of 
Science, expressing concern about this situation and two recent cases 
involving prominent Cuban scientists was published in the October 22, 
---------------------------------------------------------------------------
2007 issue of Chemical and Engineering News. Dr. Gustafsson wrote:

         I am writing to express my grave concern as to the current 
        policies and practices of the U.S. Government with regard to 
        visas for scientists from Cuba. The President-Elect of the 
        Federation of Latin American Chemical Societies, Alberto Nunez, 
        was invited by American Chemical Society to attend its recent 
        meeting in Boston on Aug. 18-24. He applied for a visa in good 
        time and made his arrangements to fly to Boston from Havana 
        immediately after returning from a series of International 
        Union of Pure & Applied Chemistry (IUPAC) meetings in Europe. 
        He received notification from the U.S. State Department on Aug. 
        14, when he was still in Europe, that his visa application had 
        been denied.

         The reasons for the visa refusal for Nunez, who has previously 
        visited the U.S., were not communicated. However, his case 
        mirrors that of another eminent Cuban scientist, Miguel Garcia 
        Roche, who is President of the Latin American Regional Group 
        for Food Science, which is affiliated with the International 
        Union for Food Science & Technology. He was refused a visa in 
        June to attend a meeting of the American national affiliate to 
        the union.

         In both of these cases, the result is that the Latin American 
        scientific community has been excluded from representation in 
        meetings of American scientific societies. This is in clear 
        breach of the principle of universality, as articulated in the 
        International Council for Science statute 5, which is adhered 
        to by IUPAC and all affiliated unions:

         ``The principle of the Universality of Science is fundamental 
        to scientific progress. This principle embodies freedom of 
        movement, association, expression and communication for 
        scientists, as well as equitable access to data, information 
        and research materials. In pursuing its objectives in respect 
        of the rights and responsibilities of scientists, the 
        International Council for Science (ICSU) actively upholds this 
        principle, and, in so doing, opposes any discrimination on the 
        basis of such factors as ethnic origin, religion, citizenship, 
        language, political stance, gender, sex or age. ICSU shall not 
        accept disruption of its own activities by statements or 
        actions that intentionally or otherwise prevent the application 
        of this principle.'' \5\
---------------------------------------------------------------------------
    \5\ http://pubs.acs.org/isubscribe/journals/cen/85/i43/html/
8543letters.html

    While every country has the discretion to decide who it will allow 
to enter its borders, the Universal Declaration of Human Rights, the 
International Convention on Civil and Political Rights, and the 
American Convention on Human Rights all preclude discrimination on the 
grounds of political belief or association. As affirmed by the American 
---------------------------------------------------------------------------
Association for the Advancement of Science,

         [t]he power of nation[s] to exclude aliens seeking to enter 
        their territory on a temporary (visitor) basis . . . must be 
        exercised reasonably [under international law], without 
        discrimination, and without arbitrariness. Under the non-
        discrimination standard, governments must ensure that their 
        laws, regulations and administrative practices do not use race, 
        sex, religion, nationality, color, political beliefs or other 
        invidious classifications as a basis for denying entry.\6\
---------------------------------------------------------------------------
    \6\ Alastair T. Iles and Marton Sklar, The Right to Travel: An 
essential Freedom for Scientists and Academics, Washington, DC: 
American Association for the Advancement of Science, Science and Human 
Rights Program, February 1996.

    While the United States Government may believe that the current 
policy toward Cuban academics is a reasonable one, it has become a 
serious concern within the international science community. As 
mentioned earlier, the U.S. policy of refusing entry to Cuban 
scientists on political grounds combined with the difficulties that 
foreign scientists continue to experience in attempting to secure visas 
or gain entry into this country are actively discouraging foreign 
scientists from applying for visas and international scientific 
organizations from holding meetings here.

Action Agenda

    The National Academies has been actively involved in discussions on 
U.S. visa policy with the higher education community, scientific 
societies, and the Federal Government, including the Departments of 
State, Homeland Security, and Commerce. Important changes in 
Administration policy have been made to meet a number of the concerns 
of the research community; however, further improvements in policies 
and their implementation are needed.

        1.  Congress should relax the requirement that all visa 
        applicants be interviewed. We need to avoid repetitive 
        processing, especially of those with a proven track record. 
        Many visa applicants invest considerable time and effort to 
        travel to and apply for U.S. visas at our nation's embassies 
        and consulates. Consular officers should again be given the 
        discretion to waive the interview requirement for those who 
        have been to this country multiple times and who have 
        established reputations and strong professional connections in 
        their home countries. This is especially needed for China 
        because visas issued to Chinese citizens are of particularly 
        short duration due to reciprocity agreements. Current 
        agreements result in a higher percentage of repeat applicants.

        2.  The Technology Alert List (TAL) should be reviewed 
        regularly by scientists and engineers outside the government, 
        and scientifically trained personnel should be involved in the 
        security-review process.\7\ The Technology Alert List was 
        originally developed as a screening tool to prevent 
        nonproliferation. Now, however, it is also used to screen 
        scientists and students in scientific fields. Visas Mantis 
        security reviews are triggered by matches against the TAL. The 
        list is no longer public, but when it was, the science 
        community noticed that much of the information on the TAL was 
        already in the public domain or could be obtained from multiple 
        countries and sources. The National Academies and the higher 
        education and scientific communities have offered to assist 
        with the revision of this list.
---------------------------------------------------------------------------
    \7\ This recommendation was contained in two recent NRC reports: 
Policy Implications of International Graduate Students and Postdoctoral 
Scholars in the United States, National Academy Press, NRC, 2006. 
Science and Security in a Post 9/11 World, National Academies Press, 
NRC, 2007.

        3.  The State Department should find a way to domestically 
        reissue student and exchange visitor visas for those who have 
        remained in status and are applying for the same visa 
        classification. This has long been a priority of the higher 
        education and scientific communities, and was included in the 
        2004 and 2005 joint community statements.\8\ This 
        recommendation was also included in the Department of Homeland 
        Security's Secure Borders and Open Doors Advisory Committee's 
        recent report.\9\
---------------------------------------------------------------------------
    \8\ The presidents of the National Academy of Sciences, the 
National Academy of Engineering, and the Institute of Medicine signed 
onto the May 18, 2005 joint community statement on visa policy. A 
similar statement issued in May 2004. Both proved extremely effective 
in stimulating action on a set of common issues. See http://
www.aau.edu/homeland/05VisaStatement.pdf and http://www.aau.edu/
homeland/JointVisaStatement.pdf
    \9\ Secure Borders and Open Doors: Preserving Our Welcome to the 
World in an Age of Terrorism. Secure Borders and Open Doors Advisory 
Committee, Department of Homeland Security, 2008.

        4.  Section 214(b) should be revisited as a screening tool, and 
        explanations for denials should be clearer. Section 214(b) of 
        the Immigration and Nationality Act requires that applicants 
        for student or visitor visas prove to the satisfaction of 
        consular officials that they do not intend to immigrate 
        illegally to the U.S. Because the criteria for proof of non-
        intent are not clear, either to visa applicants or to consular 
        officials, this provision has been the cause of many problems. 
        Denials are often form letters that simply refer to Section 
        214(b), a reference not helpful to applicants. One could remove 
        this burden of proof from science students and scholars who 
        participate in qualified academic programs, exchanges, and 
        meetings by allowing consular officials to accept certified 
---------------------------------------------------------------------------
        statements of intent not to immigrate.

        5.  The politicization of decisions about the entry of Cubans 
        using Section 212(f) of the Immigration and Nationality Act 
        should end. Cuban scholars and researchers should not be denied 
        U.S. visas simply because they are employed at universities 
        operated by the Cuban government or because of their political 
        ideology or nationality.

    Finally, I would like to end with an observation from Secure 
Borders and Open Doors:

         Today's visa process is not necessarily more error-prone than 
        in the past; however, the omnipresence of telecommunications 
        and news media, as well as enhanced global competitiveness, 
        magnifies the impact of actual and perceived errors. While any 
        specific category of error may be small, their impact can be 
        great on individuals and specific groups, and on the cumulative 
        perception of the process.\10\
---------------------------------------------------------------------------
    \10\ Ibid, page 27.

    The United States must continue to encourage and welcome talented 
students, scholars, and scientists from around the world. While 
progress has been made with respect to granting visas for foreign 
students and scholars, we must continue to work to ensure that policies 
and practices are in place that encourage the free movement of foreign 
students and scholars to and from the United States.\11\
---------------------------------------------------------------------------
    \11\ Science and Security in a Post 9/11 World, National Academies 
Press, NRC, 2007. Report recommendation number 5.
---------------------------------------------------------------------------
    Thank you for the opportunity to testify. I would be pleased to 
answer any questions the Subcommittee might have.

Attachment 1

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                    Biography for Harvey V. Fineberg
    Harvey V. Fineberg is President of the Institute of Medicine. He 
served as Provost of Harvard University from 1997 to 2001, following 
thirteen years as Dean of the Harvard School of Public Health. He has 
devoted most of his academic career to the fields of health policy and 
medical decision-making. His past research has focused on the process 
of policy development and implementation, assessment of medical 
technology, evaluation and use of vaccines, and dissemination of 
medical innovations.
    Dr. Fineberg helped found and served as President of the Society 
for Medical Decision-Making and also served as consultant to the World 
Health Organization. At the Institute of Medicine, he has chaired and 
served on a number of panels dealing with health policy issues, ranging 
from AIDS to new medical technology. He also served as a member of the 
Public Health Council of Massachusetts (1976-1979), as Chairman of the 
Health Care Technology Study Section of the National Center for Health 
Services Research (1982-1985), and as President of the Association of 
Schools of Public Health (1995-1996).
    Dr. Fineberg is co-author of the books Clinical Decision Analysis, 
Innovators in Physician Education, and The Epidemic that Never Was, an 
analysis of the controversial federal immunization program against 
swine flu in 1976. He has co-edited several books on such diverse 
topics as AIDS prevention, vaccine safety, and understanding risk in 
society. He has also authored numerous articles published in 
professional journals. Dr. Fineberg is the recipient of several 
honorary degrees and the Joseph W. Mountin Prize from the U.S. Centers 
for Disease Control. He earned his Bachelor's and doctoral degrees from 
Harvard University.

    Chairman Baird. I think you are right on the money. That is 
excellent. Thank you very much.
    Dr. Goodman.

STATEMENT OF DR. ALLAN E. GOODMAN, PRESIDENT AND CEO, INSTITUTE 
            OF INTERNATIONAL EDUCATION, NEW YORK, NY

    Dr. Goodman. Thank you, Mr. Chairman, Ranking Member 
Ehlers, and the Committee. We administer your Fulbright Program 
on behalf of the Bureau of Educational and Cultural Affairs at 
the State Department, and I know Harriet Fulbright will be 
absolutely delighted when I tell her you watched the video 65 
times.
    Since our founding in 1919, the institute has done a census 
of international students in the United States and Americans 
going abroad. In the last half century there have been just two 
periods of decline; one in the early 1970s as a result of 
global recession and upheaval in Iran, and the second period in 
the wake of 9/11. As I highlight in my testimony, that period 
of decline is now over.
    Overall last year international students in America rose by 
three percent, new enrollments in our graduate and 
undergraduate programs increased by 10 percent, and in the 
science and engineering fields new enrollments increased by 16 
percent.
    Turning the corner took the hard work of everybody 
represented at this table and in this body and in the Senate. 
We were fortunate to have a very important tone set at the top 
by the President, the Secretary of State, Secretary of Homeland 
Security, the head of the consular service, public diplomacy, 
and the Assistant Secretary for Educational and Cultural 
Affairs. I think we are the only government in the world where 
so many top officials said in the wake of 9/11, we welcome 
international students.
    Mr. Edson talked about the heroic effort on behalf of 
increasing consular services. The Bureau of Educational and 
Cultural Affairs also made tremendous effort to get the word 
out through Study Abroad, through Education USA offices around 
the world, and to provide free advice so that students could 
access both the new procedures and opportunities for study 
here. International student advisors and all the major campuses 
reached out to international students, helped them with their, 
both application and visa process, and a series of very 
strategic delegations were conducted by university and college 
presidents by the Secretary of State and the Secretary of 
Education to key-sending countries to make the word clear that 
America really welcomes its international students. During 
international ed week U.S. ambassadors in the key-sending 
countries also spoke out and got a very important message 
across; we welcome international students.
    The market for international students and scholars is very 
sensitive to misperception abroad and very sensitive to 
mistreatment at home. In my statement and recommendations I 
focused heavily on the Department of Homeland Security and the 
treatment that international students and scholars receive at 
our borders. As you said, Mr. Chairman, one anecdote circulates 
rapidly and widely and tarnishes an entire image.
    I also had a personal experience with the Department of 
Homeland Security returning from Saudi Arabia a few months ago. 
I was inspected at the border, and the first thing I was told 
was that Americans shouldn't go to Saudi Arabia. The second 
thing I was asked was what was my business there, and I 
mentioned international educational exchange and Fulbright, and 
the officer was skeptical that America should support 
international students coming here. Then he noticed in my 
passport that I had been to Iran twice, and I said, no, 
actually I have been to Iraq twice to visit the Unites States 
ambassador and to help with the starting of the Fulbright 
Program for Iraqis to come here. For the next 15 minutes he 
turned every single page of my passport. The sweat started 
rolling down my sides, and I could imagine how an international 
student or scholar would feel just asked a series of questions 
or giving an opinion.
    We have been training foreign service officers at the 
Foreign Service Institute since 9/11 on the value of 
international students and scholars to America. We have a 
similar proposal at no cost to the Government to do that 
training for the Department of Homeland Security, and we 
believe if we could do that, and they would accept the 
training, they would understand and appreciate as this 
committee does and as our consulars do, that international 
students and scholars are the most closely vetted and screened 
and monitored group of any coming to the United States and are 
of, as my fellow witnesses all highlight, inestimable benefit 
to our progress in science and technology and also our 
commerce, something that Homeland Security is also designed to 
protect.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Dr. Goodman follows:]
                 Prepared Statement of Allan E. Goodman
    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to testify at today's hearing on the subject of visas for 
foreign students and scholars. My name is Allan Goodman and I am the 
President and CEO of the Institute of International Education (IIE). 
Thanks to the work of many U.S. Government officials and university 
leaders and their international student advisors, there is good news to 
report. Overall international student enrollments in U.S. colleges and 
universities increased in the 2006/2007 academic year by over three 
percent from the previous year, ending several years of decline in the 
wake of 9/11. New enrollment figures rose by 10 percent in all fields 
and by 16 percent for international graduate students in science and 
engineering. In a country that produces more undergraduates with 
degrees in the visual and performing arts than in engineering and 
science, our future progress depends on these trends continuing and 
there are good prospects that they will.
    The Institute follows these developments closely. Founded in 1919, 
IIE is among the world's largest and most experienced international 
education and training organizations. Our mission is to promote closer 
educational relations between the people of the United States and those 
of other countries, strengthen and link institutions of higher learning 
globally, build leadership skills and enhance the capacity of 
individuals and organizations to address local and global challenges, 
and rescue scholars--many of whom are in the science and math fields. 
While we are perhaps best known for administering the flagship 
Fulbright program on behalf of the U.S. Department of State, we also 
administer the Benjamin A. Gilman International Scholarship Program and 
the National Security Education Program on behalf of the Department of 
State and the Department of Defense respectively, as well as more than 
200 other education or exchange programs sponsored by organizations, 
corporations and foundations. All in all, more than 18,000 men and 
women from 175 nations participate in IIE programs each year. 
Applications this year are at record levels in all these programs.
    In addition to administering programs, IIE identifies emerging 
trends in international academic mobility through its Open Doors 
report. This report is supported by the Department of State and 
released annually during International Education Week in November. 
Through ``Open Doors'' data which we have been collecting since our 
founding year, we can analyze the changes in flows of international 
students to the U.S. and U.S. students abroad, and help policy-makers 
address the factors affecting those shifts in numbers, destinations, 
and fields of study.

The Benefits of Welcoming International Students to the U.S.

    You have asked me to articulate the benefits to U.S. scientific 
enterprise and to the U.S. more broadly in welcoming foreign students 
and scholars. But let me start with a quick overview of all 
international students studying in the U.S. because I think the facts 
are compelling. In academic year 2006/07, 582,984 international 
students studied in the United States, up 3.2 percent from the prior 
year and up 10 percent in terms of new students entering their U.S. 
campus for the first time in fall 2006. These students contributed 
$14.5 billion to the U.S. economy through their expenditures on tuition 
and living expenses. In fact, the U.S. Department of Commerce ranks 
international education as the U.S.'s 5th largest service sector 
export.
    But these students don't just benefit our national economy. Their 
presence diversifies our campuses--particularly important since only 
one percent of American students studied abroad in the past year and 
yet will have careers that require global perspectives. International 
students help Americans gain a critical understanding of other cultures 
and languages such as Arabic, Korean and Farsi. They help to develop 
long lasting relationships between the U.S. and other nations--some 
notable examples of exchange students who studied in the U.S. are 
former Prime Minister Tony Blair, former UN Secretary General Kofi 
Annan, and Afghan President Hamid Karzai. Having tomorrow's leaders 
live and learn in the U.S. assists our long-term foreign policy goals 
and is indeed one of this country's strongest diplomatic assets.
    It is important to note that these international students study at 
accredited institutions of all types--whether they are studying at 
community college, specialized institutions, or are working toward a 
Baccalaureate, Master or Doctoral degree. They also study in all 
regions. Twenty three percent of these students (over 132,000) study in 
the Pacific Northwest, Mr. Chairman, while 22 percent (over 126,000) 
study in the Midwest region from which the Ranking Minority Member 
hails.

The Benefit of International Students to the U.S. Scientific Enterprise

    The impact of international students and scholars on U.S. 
scientific enterprise is quite significant. Over 35 percent of all 
international students in the U.S. study in science or engineering-
related fields. American campuses and graduate departments increasingly 
rely on international students to provide valued research or assistance 
in teaching. Today, more than one-third of U.S. engineering and 
computer science faculty are foreign-born, many of whom came to the 
U.S. first as an international student. Nearly 50 percent of the U.S. 
doctorates awarded in engineering and computer science go to 
international students and many foreign students are serving as 
teaching or research assistants especially in Science and Technology 
graduate departments to which American students are simply not 
applying. These students and scholars further contribute through patent 
applications and innovation.
    And there is a further ripple effect--more than 50 percent of Ph.D. 
engineers working in the U.S. are foreign born. 45 percent of math and 
computer scientists, as well as life scientists and physicists working 
in the U.S. are foreign-born. More than one-third of Nobel Laureates 
from the United States are immigrants. Over 60 percent of finalists in 
the 2004 Intel Science Talent Search, which are the top high school 
science students in America, were the children of immigrants with 20 
percent of those parents coming to the U.S. as international students.
    Because international students and scholars bring so many benefits 
to U.S. scientific research, we must pay close attention to the impact 
our immigration and visa issuance policies have. The new policies and 
procedures put in place after 9/11 did have a chilling effect and we 
did see the number of students coming here drop, if even only by one to 
two percentage points. Those numbers were magnified by the stories 
students and scholars told about visa waiting time, denials, and 
hostile treatment at our ports of entry and grew into a virtually 
worldwide perception that international students were no longer welcome 
in America. The U.S. Foreign Service and the higher education community 
responded vigorously to correct that misperception and all of us will 
have to continue to be proactive in assuring the international 
community that America has found a way to secure our borders and still 
promote international educational exchange. The Fulbright International 
Science and Technology Fellowships, launched by the State Department in 
2006, sent an important signal to outstanding graduate students around 
the world that the U.S. welcomes these talented individuals and offers 
them unparalleled opportunities to advance their careers and contribute 
to scientific research.

The Institute of International Education: Promoting the Exchange of 
                    People and Ideas

    As I mentioned earlier, the mission of the Institute of 
International Education is to promote, foster, and support the exchange 
of people and ideas. The Institute was founded in the wake of World War 
I under the premise that there could be no lasting peace without 
greater understanding between nations--and that international 
educational exchange formed the strongest basis for fostering such 
understanding.
    The Institute was then, and is now, a catalyst for educational 
exchange. It serves as a central point of contact and source of 
information both for U.S. higher education and for foreign nations 
interested in establishing educational relations with the United 
States. In fact, it was IIE's President that persuaded the government 
to create non-immigrant student visas, bypassing post-war quotas set in 
the Immigration Act of 1921.
    Today, the programs under our stewardship continue to educate 
future leaders from the United States and around the world but also 
work to find new ways to reach out to those countries and regions that 
are least understood by Americans, have some of the lowest exchange 
numbers and are suffering some of the most entrenched and complex 
challenges. Our work now encompasses every region of the world and 
nearly every country. We have a network of offices worldwide and six 
regional centers in the United States to encourage and facilitate 
robust exchange.
    You have asked how we work with both the university community and 
the Federal Government in promoting exchange. We work extraordinarily 
closely with both.

A Resource for Institutions and Students Alike

    The Institute is a resource for domestic and international academic 
communities. The IIENetwork serves colleges, universities, and 
international exchange agencies worldwide and offers its 900 member 
institutions a thriving online community (www.iienetwork.org), an 
electronic newsletter, and comprehensive print and electronic 
directories including www.StudyAbroadFunding.org and 
www.FundingUSStudy.org, Intensive English USA and the heavily used 
IIEPassport.org study aboard website and publications. Our IIENetwork 
also conducts seminars and workshops in the U.S. and overseas, 
including our annual IIE Best Practices Conference in the U.S. and 
workshops such as ``Internationalizing Your Campus: Global Resources 
for Local Universities.'' IIE honors the most outstanding initiatives 
that are being conducted by member colleges and universities with the 
Andrew Heiskell Awards for Innovation in International Education. More 
than 50 such outstanding programs were recognized in the past seven 
years, including one for faculty exchanges at Congressman Carnahan's 
alma mater.
    IIE helps international students gain information on studying in 
America, assists educators in recruiting international students and 
establishing linkages with overseas partners. Our signature 
``IIEPassport'' website and books are a resource for both students and 
advisers, offering listings of over 7,000 study abroad programs 
worldwide, and advice on how to select the right program for each 
student's needs, and how to fund financial support as well. The 
Institute also coordinates events on the ground connecting students and 
parents to higher education representatives. For instance, IIE 
organized eleven U.S. Higher Education Fairs throughout Asia with more 
than 100 U.S. campus officials on-site to present objective and timely 
information to more than 10,000 students and parents in countries such 
as Indonesia, India, Japan, Thailand and Vietnam.
    In 2006, the Department of State selected the Institute to manage 
the global Regional Educational Advising Coordinators (REAC) program on 
behalf of the Bureau of Educational and Cultural Affairs. The ten REACs 
support 450 EducationUSA advising centers around the world, providing 
leadership and expertise to educational information centers and U.S. 
embassies and serving as a liaison between ECA staff in Washington and 
the advising centers overseas. There is significant outreach that goes 
on under the REAC program. Just one example is IIE's Southeast Asian 
regional center in Bangkok which ran workshops with the American 
University Alumni Association (AUA) to help English teachers from 
Thailand and neighboring countries prepare their students for the new 
TOEFL exam and other U.S. standardized tests.

IIE's Work With the Federal Government

    Our relationship, cooperative agreements, and work with the Federal 
Government are longstanding. We are honored to have administered the 
flagship Fulbright program on behalf of the U.S. Government since the 
program's inception in 1946. This includes the U.S. and foreign student 
and scholar programs, as well as the Hubert H. Humphrey Fellowship 
Program.
    We also administer the Benjamin A. Gilman International Scholarship 
Program and the National Security Education Program (NSEP) on behalf of 
the Department of State and Department of Defense respectively. The 
Gilman program helps American students with high financial need to 
study abroad in non-traditional destinations and NSEP helps U.S. 
undergraduate and graduate students study critical language and then 
``pay-back'' through up to a year of service in one of the federal 
agencies related to our national security, or in an educational 
organization if no appropriate position exists in the relevant federal 
agencies. The Humphrey program brings accomplished professionals from 
designated countries to the U.S. at a midpoint in their careers for one 
year of study and related professional experiences. They return home to 
leadership positions in public service fields, bringing a deep 
appreciation of American values and ways of doing business. It is 
important to know that each and every one of these programs are 
experiencing record numbers of applications. The thirst for 
international study and training continues to grow, and the study 
abroad student population is more diverse than ever before in our 
history.
    In addition to supporting and encouraging student study abroad, IIE 
has a long tradition of rescuing scholars who are threatened with 
persecution or death due to their scholarly pursuits. The Institute has 
rescued thousands of students and scholars beginning with those caught 
in the crossfire of the Bolshevik Revolution. That work continued 
throughout the 20th Century as IIE rescued persecuted scholars fleeing 
Europe in WWII and during the Hungarian Revolution, and resettled them 
on U.S. campuses. In 2002, these efforts were formalized in the Scholar 
Rescue Fund, a permanent endowment supported by both private and public 
funds which allows for more rapid response in times of crisis.
    Through the Scholar Rescue Fund, scholars are temporarily resettled 
at a host university anywhere in the world where they can resume their 
work guest lecturing, teaching, researching and writing. The host 
university shares in the expenses of supporting a scholar and has the 
benefit of their participation in the university community. I mention 
the Fund because often these scholars have science or engineering 
degrees. For example, today in the U.S., Rice University is hosting a 
scholar from Belarus who teaches Biomedical Optics and Thermal Physics, 
the University of Florida is home to a Thermal Hydraulics professor 
from Iraq, Kent State hosts a Computer and Electrical Engineering 
scholar also from Iraq, the University of Oklahoma is temporarily home 
to an Iraqi professor of Geology and Micropaleontology. The U.S. 
Government supports not only the global work of the Fund but also a 
more specific mission to rescue Iraqi scholars currently under threat.

The Visa Mantis Process and an Improved Flow of International Students

    The number of international students enrolled in colleges and 
universities in the United States increased by 3.2 percent to a total 
of 582,984 in the 2006/07 academic year. This is the first significant 
increase in total international student enrollments since the numbers 
began declining after 9/11. This past year saw an even bigger jump in 
the number of ``new'' enrollments--that is students who were enrolled 
at a college or university for the first time in the fall of 2006, 
which rose 10 percent from the previous year--this is a marked 
increase.
    I took the opportunity to take a closer look at the numbers of 
international students from the alma maters of Members of the 
Subcommittee. For the 2006/2007 school year, all the numbers are up. 
For example, the University of Wyoming hosted 478 international 
students--an increase of 8.6 percent over the previous year and the 
University of California at Berkeley hosted 3,167 international 
students, an 18 percent increase.
    An examination of first time foreign students in graduate science 
and engineering programs also shows an increase. According to the 
results of a National Science Foundation (NSF) survey released just 
last week enrollment of first-time, full-time foreign graduate students 
on temporary visas studying science and engineering (S&E) grew by 16 
percent in 2006, following a four percent increase in 2005. These 
increases reflect a reversal of the declines in enrollments of new 
foreign S&E graduate students in the wake of September 11th, which had 
declined by 19 percent between 2001 and 2004. The National Science 
Foundation credits a variety of factors for the increases including 
improvements in the quality and attractiveness of science and 
engineering education in other countries as well as application and 
approval rates for student visas.
    However, according to NSF, despite the recent increases, both 
first-time, full-time and total enrollments in 2006 for foreign S&E 
graduate students are still somewhat below the levels earlier in the 
decade. Foreign students represent 29 percent of all science and 
engineering graduate students--this is down from 31 percent in 2003. 
These numbers from the National Science Foundation's Science Resources 
Statistics division closely parallel IIE's Open Doors findings.
    The turnaround and improvement achieved in the last few years 
reflect substantial progress by the Department of State to make the 
visa process more predictable for students and scholars. The change in 
the Visa Mantis process announced in February of 2005 and a redoubling 
of efforts by the Department of State and its Bureau of Educational and 
Cultural Affairs to attract international students to U.S. campuses was 
instrumental in helping to achieve this change in the enrollment 
numbers. They launched a consistent and multi-pronged push to make the 
visa process more predictable for students and scholars and to attract 
or re-attract international students. This has included efforts such as 
the first U.S. University Presidents Summit on International Education 
that brought together 123 presidents or chancellors. It was there that 
Secretary Rice announced; ``America's mission in this new century must 
be to welcome more foreign students to our nation and send more of our 
citizens abroad to study. To be successful, our government and our 
universities must forge a new partnership for education exchange, a 
partnership that rest on new thinking and action.'' This was a very 
important tone to set from the top and was buttressed by outreach 
conducted together by university presidents or chancellors along with 
high-ranking members of the State Department to critical regions of the 
world.
    In addition, the Department placed a high priority on increasing 
consular personnel--adding 570 new consular officers since September 
2001, to expedite the visa process. They were also quick to accept our 
offer to brief all consular officers undergoing training at FSI on the 
concerns that we consistently heard from international students and 
officials at American host campuses, as well as the importance of 
international education to the U.S. economy, its impact on national 
security, and progress in the STEM fields.
    The extent of improvement has been substantial and is due not only 
to efforts by the State Department but also by the increased outreach 
undertaken by American college and university officials to reassure 
international students and their parents that they are welcome on 
America's campuses. We know from our Open Doors survey of higher 
education institutions enrolling international students that 60 percent 
of responding institutions have taken special steps to ensure that the 
number of international students on their campuses does not decline. 
And that special steps included new international programs or 
collaborations (33 percent), as well as new staff or additional staff 
time devoted to international recruitment (26 percent), new funding for 
international recruitment trips (23 percent), and new funding for 
marketing and promotion of programs (21 percent). Institutions that 
devoted more resources for international student recruitment trips seem 
to have concentrated mainly on Asia. Of course, we can always all do 
more and must ensure that we keep up our efforts to attract the world's 
brightest students to U.S. campuses. But it is clear that there is 
significant interest and effort among institutions of higher learning 
to attract, keep and nurture foreign students.

What More Needs to Be Done?

    We can all imagine how circumstances might impact international 
students coming to the United States. Many of us have helped our own 
children negotiate entering college and understand that it can be a 
time of great anticipation and excitement but also nervousness and 
trepidation for young people. Mr. Chairman, you along with your 
colleagues, the Ranking Member Mr. Ehlers, Mr. Bartlett and Mr. 
Lipinski, can better understand the challenges faced by any university 
student leaving home for the first time given your backgrounds as a 
professors. But, imagine the incredible fortitude, drive and courage to 
leave your home country, fly to the United States, navigate the non-
immigrant visa review and border entry processes and enter an 
institution of higher learning here in America. We owe it to these 
students and to their parents to make the process as accessible, 
predictable, and respectful as we can while also protecting our 
national security and insuring that only legitimate students are 
granted the privilege to study in the United States.
    The most immediate need now is to better train Department of 
Homeland Security border inspectors. All too often we hear of 
unpleasant and extremely harassing treatment of incoming students and 
scholars, particularly of those who come from the Middle East or whose 
name identifies them as an adherent of Islam. Sometimes the inspector 
does not appear to understand the process by which international 
students are admitted to our colleges and universities, and end up 
questioning the student about issues that have already been decided by 
the visa-granting officer back in the home country. This treatment can 
be particularly intimidating for students who may be traveling abroad 
for the very first time and who may be confused of what is being asked 
of them. Some students hail from countries or cultures where figures of 
authority are never questioned or talked to--even if trying to clarify 
a request or order. And, of course, there are cultural or religious 
issues to be bridged. For instance, some Muslim women are not allowed 
to talk to men outside their family. Some cultures do not encourage 
direct eye contact with strangers, and hence the student may appear 
evasive or non-forthcoming in responding.
    We have offered to provide similar training to Homeland Security 
border officials, at no cost to DHS, as we now do routinely for newly 
trained consular officers at the Foreign Service Institute, and are 
awaiting DHS approval.
    Attached to my statement is a PowerPoint we have already provided 
to Department of Homeland Security to use in their computer based 
training.
    IIE and our network of 900 colleges and universities is deeply 
committed to sustaining and expanding the flows of talented 
international students in the science and technology (S&T) fields, who 
continue to see America as the destination of choice for their overseas 
training. We also are working hard to expand opportunities for 
Americans from all backgrounds and in all fields, particularly the 
challenging fields of S&T, to study abroad at some point in their 
academic career and to gain the international perspectives and global 
experience that will be vital to their success and to our country's 
competitiveness, in the 21st century. Through the Global Engineering 
Education Exchange, a consortium of 32 U.S. engineering schools and 
over 50 outside the U.S. is helping several hundred engineering 
students each year study outside their country on a tuition-swap basis, 
and several other programs that IIE has the honor to administer also 
provide opportunities for young American scientists and engineers to 
study and do research abroad.
    Mr. Chairman and Members of the Subcommittee, thank you for your 
interest in international exchange and for inviting me to testify 
today. I look forward to answering any questions you might have. I also 
look forward to the day when we will read in our headlines that cancer 
has been cured or a vaccine developed to prevent HIV. America's open 
academic doors may already have brought the international graduate 
student or researcher here who will hasten the day when that good news 
will be possible.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     Biography for Allan E. Goodman
    Dr. Goodman is the sixth President of IIE, the leading not-for-
profit organization in the field of international educational exchange 
and development training. IIE administers the Fulbright program, 
sponsored by the United States Department of State, and 200 other 
corporate, government and privately-sponsored programs.
    Previously, he was Executive Dean of the School of Foreign Service 
and Professor at Georgetown University. He is the author of books on 
international affairs published by Harvard, Princeton and Yale 
University Presses and Diversity in Governance, published by the 
American Council on Education. Dr. Goodman also served as Presidential 
Briefing Coordinator for the Director of Central Intelligence and as 
Special Assistant to the Director of the National Foreign Assessment 
Center in the Carter Administration. He was the first American 
professor to lecture at the Foreign Affairs College of Beijing. Dr. 
Goodman also helped create the first U.S. academic exchange program 
with the Moscow Diplomatic Academy for the Association of Professional 
Schools of International Affairs and developed the diplomatic training 
program of the Foreign Ministry of Vietnam. Dr. Goodman has also served 
as a consultant to Ford Foundation, the Woodrow Wilson National 
Fellowship Foundation, the United States Information Agency, and IBM. 
He is a member of the Council on Foreign Relations. Dr. Goodman has a 
Ph.D. in Government from Harvard, an M.P.A. from the John F. Kennedy 
School of Government and a B.S. from Northwestern University. Dr. 
Goodman also holds an honorary doctorate from Toyota University. He has 
been awarded honorary doctor of laws from Mount Ida and Ramapo Colleges 
and an honorary Doctor of Humane Letters degree from the State 
University of New York to recognize his work in rescuing threatened 
scholars, and he has received awards from Georgetown, Johns Hopkins, 
and Tufts universities. Dr. Goodman was awarded the title ``Chevalier'' 
of the French Legion of Honour on April 23, 2007.

   STATEMENT OF MS. CATHERYN COTTEN, DIRECTOR, INTERNATIONAL 
                    OFFICE, DUKE UNIVERSITY

    Ms. Cotten. Good afternoon, Chairman Baird, and Ranking 
Member Ehlers, and the Subcommittee Members. I really 
appreciate the opportunity to be here today and speak with you 
on behalf of Duke University, the American Council on 
Education, and the Association of American Universities.
    Duke University Medical Center and Health System is a major 
teaching and research facility and a teaching hospital. We have 
approximately 1,800 international students, about 1,000 
scholars, most of whom are involved in the sciences, although 
we do have our smattering of other areas as well. We use the F-
1 visa, the J-1, the H-1B, the O-1, the TN, even the occasional 
R-1 theology person, to come to Duke and do research and study 
and teach.
    We cannot speak for all of the universities in the U.S., 
but we can certainly say that our issues are similar to other 
issues of universities and research facilities around the 
country.
    We have been asked to respond to three questions. We would 
refer you to our written testimony for the first two, and we 
will focus on the third, which has to do with the 
recommendations we would have for some changes that could be 
done now and that would not necessarily require statutory 
changes.
    We have already spoken among this group about stateside 
visa extensions and how important that would be to our people. 
We cannot overemphasize the fear that people have in returning 
home or outside the U.S. to get a new visa stamp. The first 
experience is often a very difficult one. Even though it turns 
out fine in the end, it is very painful as far as the process 
goes, often requires travel from some distance to the local 
consular post. We have been very pleased with the advances that 
have been made in the last few years in giving F-1 and J-1 
students the opportunity to have earlier appointments, in 
giving consular officers the permission to give them the 
benefit of the doubt to come into the country in terms of their 
non-immigrant intent. We would like to look a little more at 
that area as well.
    But once they arrive here, they are very frightened to go 
back. They are afraid that this time they won't get the visa 
stamp, and so the discussion that we have had among the 
panelists here regarding stateside processing is one that would 
be of tremendous help to all of our international students and 
scholars.
    In addition, many of our researchers and our faculty, when 
they travel as part of the work that they do for us, need to 
travel short-term. They go to a conference that is a three-day 
or a four-day conference. They really can't afford to spend 
three weeks. Even though they get expedited processing, it 
could take two or three weeks to get a visa to come back. And 
so they are choosing not to go to these important conferences, 
not to represent our institutions at these important meetings 
because of the fear of either taking too long to get back or 
not being able to come back at all.
    We know that stateside visa processing is possible. It has 
been done before, and we especially applaud the Department of 
State's efforts recently to waive the interviews for visa 
extensions and to go to the online filing system, which means 
that not only can you just print it out, but you can truly 
press a submit button and file on line and have information go 
where it needs to go.
    With this kind of technology, there really is no point in 
forcing the body to be outside the country to get the visa 
stamp issued, and so we would encourage any efforts in the 
direction of stateside processing for visa extensions.
    And in conjunction with that is the non-immigrant intent 
issue and that discussion. It is an important law, but it is an 
old one. Non-immigrant intent is the assumption that anyone 
applying is an intending immigrant, and they must prove 
otherwise. With our F-1 and J-1 students and scholars they have 
already shown that they are worthy of coming to the U.S., or 
they wouldn't be getting the documents that we have given them. 
They will have gone through security clearances before they get 
their visa stamps. It is very difficult for them, for any 
student coming into an undergraduate or graduate program to 
swear where they will be in the next three or four or five 
years. Our own domestic students don't know that. Certainly the 
international students don't.
    And the issue of non-immigrant intent is one that we could 
deal with in terms of policy and looking at some bright-line 
areas to define. For example, have these people filed for 
immigrant visas, have they filed labor certs, has anyone done 
anything to get them green cards? If not, can we not simply 
assume, barring any other major indications, that they have 
non-immigrant intent? We could do that without changing the 
law, although we would not be adverse to some legislative 
changes as well.
    Another area that has caused some difficulty among the 
educational community and the research community is the 
exchange visitor program professor and research scholar 
category. The J-1 Program is one of the finest examples of 
international exchange that this country has ever produced, and 
it has been going on for over 50 years. We have brought many 
thousands of international students and scholars in and out of 
the U.S. on that program.
    In particular, the professor and research scholar category 
is used by our educational institutions as the work-horse visa 
to move people in and out of the country and to move them 
around the country so that they can do all of the visiting 
lectures, the guest professorships, the collaborative research.
    For reasons that we don't understand, the Exchange Visitor 
Program has given the professor researcher category a five-year 
limit, which we applaud, but only if that five years is 
continuous and uninterrupted. If we bring someone in to teach 
for one year, to do research for one year, then that person is 
barred from returning in the J category, professor researcher, 
for two years. If they come for three weeks, two days, four 
hours, and they come in the professor researcher category, and 
they end that activity and go home, they are barred for two 
years from returning, not just to our institution but to any 
educational institution in America.
    We don't understand the philosophy behind this, and we 
would welcome the opportunity to have a more in-depth 
discussion of that particular characteristic of the J Program.
    We would also like to talk about the F-1 student 
employment. We understand that Department of Homeland Security 
is considering giving F-1 students optional practical training, 
not for 12 months, which is true now, but for up to 29 months, 
and we would certainly encourage that, to give particularly our 
post-doctoral students the opportunity to work longer in the 
U.S. in their post-doctoral training after they graduate.
    One of the difficulties, though, with the OPT is that it 
must be adjudicated by Homeland Security unlike the other 
student working options and the scholar working opinions which 
we manage on the campus. This one in particular requires an 
adjudication. It is something that we could handle on the 
campuses through SEVIS, through a reporting system. We are 
doing that now with numbers of other kinds of work 
authorizations, and we could do this as well.
    We had students at Duke affected last year because of the 
July green card situation, which some of you may have heard of. 
Homeland Security got many hundreds of thousands of 
applications for green cards, and our students were filing 
their OPT work permissions after graduation or before 
graduation in anticipation of working for the summer. Those 
applications sat in storage facilities in Homeland Security for 
months. They were not only not adjudicated, they were not 
opened. The checks were not cashed. It was as if they did not 
exist. There is a regulation in Homeland Security that if they 
take more than 90 days to issue a work permission, a person 
should be able to walk into a local office and get interim work 
permission. Homeland Security announced that it had elected not 
to follow its regulation in that regard. We had numbers of 
students who lost jobs, who had filed months in advance. These 
were not students who waited until the last minute. They had 
filed properly, and they lost jobs because they could not say 
to an employer when they would be able to start, couldn't even 
track their application because it had never been opened and a 
number assigned to it to track.
    So we would encourage Homeland Security to involve the 
educational programs and the institutions more, not in the 
adjudication of but merely approval of optional practical 
training.
    Chairman Baird. Ms. Cotten, I am going to ask you to wrap 
up here. Your testimony is absolutely valuable and the comments 
I read are, I think, spot on, but we are, I want to make sure 
there is time for give and take here.
    Ms. Cotten. I will be happy to close there. Thank you, sir.
    [The prepared statement of Ms. Cotten follows:]
                 Prepared Statement of Catheryn Cotten
    Good Afternoon, Chairman Baird, Ranking Member Ehlers, and 
Subcommittee Members. My name is Catheryn Cotten and I am Director of 
the International Office for both Duke University and Duke Medical 
Center and Health System. I appreciate the opportunity to provide 
testimony today on behalf of Duke, the American Council on Education 
and the Association of American Universities.
    Before I begin my formal remarks, I would like to say a few words 
about Duke University and its medical and health enterprises. Duke 
University, Medical Center, and Health System comprise a major teaching 
and research university and teaching hospital. We grant undergraduate, 
graduate, and professional degrees and offer a multitude of organized, 
formal, and informal educational opportunities. Many of these lead to 
certification or other professional or vocational recognition. We 
operate one of the Nation's leading medical research facilities and 
teaching hospitals. Our university and medical facilities host numerous 
international students, scholars, patients, and visitors as a normal 
part of our daily operations.
    We work cooperatively with both government research facilities and 
the research and development branches of businesses involved in 
science, medicine, technology, engineering, computing, mathematics, 
social sciences, and humanities. These relationships allow us to offer 
a broad range of experiences and opportunities to international 
faculty, research scholars, students, and international visitors. We 
have approximately 1,800 international students, most in F-1 or J-1 
student status, who may file for student-connected work permission or 
other benefits.
    We use the J-1 Exchange Visitor Program and H-1B, O-1, and TN, to 
sponsor approximately 1,000 international faculty, research scholars, 
and persons with specialized knowledge and skills to teach, conduct 
research and share their expertise.
    We appreciate the opportunity to offer testimony. While we cannot 
speak for all educational institutions, we know that other colleges, 
universities, and research institutions share similar issues and 
concerns regarding opportunities for international students and 
scholars.
    We have been asked to respond to three questions:

1.  How do foreign students and scholars contribute to the science and 
engineering enterprise at your university?

    Statistical reports abound regarding the numbers and percentages of 
international students and scholars in our nation's educational 
institutions and research facilities and the contributions that they 
make. Of the 2,800 international students and scholars at Duke, most 
are in science, technology, engineering, and mathematics fields.
    Duke is committed to interdisciplinary education and research to 
maximize and multiply the effective development of new technologies. 
Examples of such integration include: environmental science, resource 
management, environmental law, and public policy; computer applications 
in genomics or cardiology and related health statistics and 
demographics; biomedical engineering and new therapy developments 
leading to targeted drug delivery systems or quicker transitions of new 
therapies from ``bench to bedside.''
    The very best U.S. and international students and scholars compete 
for admission to our degree programs and acceptance into our research 
projects. They bring not only superior knowledge, skills, and 
abilities, as do their U.S. colleagues, but they also offer new 
perspectives on ways of using disparate technologies to solve problems 
and identify new avenues of research.

2.  How have visa delays or denials affected the ability of your 
university to recruit and retain top science and engineering students 
from abroad? How have they affected your ability to attract scholars 
for short-term appointments and research collaborations? To what extent 
has this process improved in the last few years? What difficulties 
remain? Did the significant problems for foreign students and scholars 
in the early years after 9/11 lead to long-term consequences for your 
university?

    We cannot know all that we have lost, the successes that might have 
been. How many excellent students or scholars, hearing the visa 
application horror stories from cousins, colleagues, and classmates, 
made the decision not to attempt to come to the U.S.? How many, while 
waiting to get a U.S. visa, gave up and took their second or third 
choice offer in another country?
    In the years immediately after 9/11, the U.S. created barriers for 
students and scholars that only the most dedicated schools, students, 
and scholars were able to cross. We had to defer admission for students 
who could not arrive on time, and we lost some students completely as 
they saw themselves falling behind their colleagues professionally 
because of visa delays or denials. Research projects were delayed or 
harmed because key researchers could not arrive on time or could not 
come at all. Much remains to be done, but in recent years we have seen 
improvements:

        <bullet>  THEN mandatory interviews and wait times for visas at 
        embassies and consulates caused serious delays. NOW the 
        Department of State (DOS) policy of priority interviews for F-1 
        students and J-1 students and scholars sends a positive message 
        and produces positive results. We are pleased and proud to be 
        able to tell our students and scholars that our university 
        wants them, that the U.S. wants them, and that the DOS, their 
        ``first contact point,'' is showing that in meaningful ways.

        <bullet>  THEN security background checks delayed people for 
        many months, often with no avenues for resolution and ``no end 
        in sight'' for the review period. NOW the process has become 
        more regularized, communications among the various agencies has 
        improved, processing times have become shorter and more 
        predictable, and DOS has developed processes for investigating 
        and resolving most serious delays. Even so, we still must wait 
        at least three months before inquiring about a security check 
        that seems to be stuck in the system.

        <bullet>  THEN the Student and Exchange Visitor Information 
        System (SEVIS) was developed in haste after 9/11, ignoring or 
        omitting many of the positive operational elements that had 
        been planned for a more organized roll out. The system was 
        rigid and did not reflect the regulations under which schools 
        and exchange programs were required to operate. The nascent 
        database and data sharing capabilities created delays and 
        confusion, produced false or conflicting data, resulted in 
        denials of proper benefits, and visited hardships on our 
        students and scholars. NOW the Department of Homeland Security 
        (DHS) is and has been working diligently with the educational 
        community to add and upgrade SEVIS functionality. 
        Unfortunately, we still find that in certain areas the software 
        conflicts with the regulations, that students and scholars have 
        benefits delayed or denied, and that data fails to move swiftly 
        or accurately among databases. On the positive side, the 
        information in the current version of SEVIS seems to be more 
        available to DOS consular officers and DHS port officers. Those 
        officers seem more confident about relying on the information 
        in SEVIS to admit students and scholars into the U.S. But we 
        still see a lag in functionality in SEVIS for the J-1 program. 
        We understand that DHS is planning a total revision of SEVIS. 
        We welcome that endeavor and hope to be an active and involved 
        part of the process.

3.  Do you have recommendations for changes or improvements to current 
policies that would further improve the flow of students and scholars 
without compromising national security? How do you communicate your 
concerns and recommendations to the relevant federal agencies and how 
responsive are the agencies?

    Reviewing the past and present informs us. But moving toward future 
improvements with a willingness to think differently empowers us to 
bring the best of the best to the U.S. and to build the strong and 
lasting international relationships that contribute fundamentally to 
our national security. In response to this question, we have identified 
areas that continue to frustrate international exchange and offer 
different ways of addressing issues of concern. We have placed the most 
important items first in each section.

STATESIDE VISA EXTENSION OR ISSUANCE

    Having to apply for visas abroad, lengthy security clearances, and 
the fear of rejection or delays prevent critical and important 
exchanges. Individuals are afraid to attend meetings or conferences or 
to visit family at home. A few years ago, a Duke Ph.D. student went 
home to pick up her parents so they could attend her graduation. When 
she tried to return to the U.S., she was denied the student visa she 
needed to return and defend her dissertation and graduate. Also, a Duke 
researcher who attended a conference overseas was ``trapped'' outside 
the U.S. for months waiting for a security clearance.
    The recent DHS regulations regarding the REAL ID Act create 
additional problems by making one of the documents used to establish 
identity an ``unexpired foreign passport with a valid, unexpired U.S. 
visa affixed accompanied by the approved I-94 form documenting the 
applicant's most recent admittance into the United States.'' A review 
of the other documents that could be used to show identity indicate 
that, in most cases, our international students and scholars would not 
have access to alternate documents and would be forced to use the 
passport with a valid visa stamp. Coordinating travel to get visa 
stamps, which can only be obtained abroad, against driver's license, 
passport, and I-94 expirations (all with possible different dates) will 
become a travel and consular post nightmare.

Policy/Practice Solutions--What could be done now
    The most useful change would be allowing stateside visa 
applications, security clearances, and granting of visas before people 
leave the U.S. DHS and DOS have the authority to make stateside 
processing possible. Indeed, stateside processing used to be available 
for the H-1B visas. Our students and scholars would be willing to pay 
appropriate fees to make this service available. An individual who 
needs to attend a four-day meeting abroad would not have to spend an 
extra three weeks outside the U.S. to get a visa stamp and worry for 
those three weeks that it might not be granted.
    With the availability of e-communications among U.S. departments, 
agencies, law enforcement, and security entities, there is no reason to 
force consular posts to process visa extensions rather than providing 
that service stateside.
    In addition, to the extent possible under the law, the Federal 
Government should provide long-term visa stamps to students and 
scholars so they are not forced to apply for new or extended visa 
stamps so often. Such changes made to the F and J visas a few years ago 
have been very useful. We need to build on that success.

NON-IMMIGRANT INTENT

    F and J status require ``non-immigrant intent'' or proof of 
intention to return home. The inability to show non-immigrant intent is 
one of the most common reasons for visa delay or denial for F and J 
students and scholars. Determination of intent requires consular 
officials to engage in a kind of psychic mind reading. They must 
speculate on the intent of the applicant and make a visa decision in 
part on that speculation. Although DOS instructions in recent years 
have allowed consular officers to give these students and scholars the 
``benefit of the doubt,'' the unpredictability of this determination 
makes students and scholars afraid to travel. If and when they receive 
the first visa stamp and arrive in the U.S., their memories of the 
worries and uncertainty of that process stay with them. Students may 
remain in the U.S. for years, fearing that if they try to visit their 
families they will not be able to return to the U.S. Scholars hesitate 
to attend important international meetings and conferences, fearing 
they will be stuck outside the U.S. for months or indefinitely. (Please 
see Appendix 1 for further discussion of this point.)

Policy/Practice Solution--What could be done now
    In order to alleviate this uncertainty for international students 
and scholars, DOS could simply interpret immigrant intent differently 
for F and J visas. Rather than asking consular officers to ``guess'' at 
intent, DOS should set a simple standard. If F or J applicants have not 
had labor certification or immigration petitions filed on their behalf 
and have not filed an application for lawful permanent resident status, 
that should be considered evidence of non-immigrant intent.
    Some may argue that the ``exchange'' nature of the J Exchange 
Visitor Program assumes and requires a strong intent to return to the 
home country, and thus should be held to a strict standard. Again, if a 
person has taken no formal, legal action toward legal permanent 
residency status, that person has shown no immigrant intent. We should 
also rethink the 20th century ideas of exchange in the 21st century. 
When information can be shared globally and instantly electronically, J 
exchange visitors may be more effective in sharing and carrying out the 
purposes of the Exchange Visitor Program based on their access to 
communications rather than their presence in a specified geographic 
location.

Statutory Solution
    Remove the non-immigrant intent language from the F visa, and 
possibly from the J visa. The F change has been discussed for years.

ELIMINATE THE J-1 PROFESSOR-RESEARCHER CATEGORY ``BARS''

    The DOS J-1 Exchange Visitor Program (EVP) has convoluted 
regulations on ``bars'' to participation in the Professor/Research 
Scholar (PRS) category that wreak havoc on teaching and research. For 
colleges and universities, this is the most serious issue in the 
Exchange Visitor Program. In brief, the PRS category has a five-year 
participation limit if the person participates in the program 
continuously for five years. However, if we bring a researcher to the 
U.S. in the PRS category for a few months and that person returns to 
the home university to continue collaborative research, he or she is 
barred for two years from returning to the U.S. in the PRS category. 
(There is another six-month/12-month bar operating within and around 
the two-year bar, but that is more detail than is necessary for this 
discussion.)
    The bars completely disrupt critical collaborative research and 
academic exchange. Important senior scholars or young and innovative 
researchers might come to one university for a period of time, but 
could not return later to another university until two years have 
passed. Officials with the DOS Exchange Visitor Program explain this 
bar as protecting the integrity of the EVP by preventing ``repeat'' 
visitors, which they seem to see as an abuse of the program. Repeat 
visits, ongoing exchanges, and a free flow of talent is exactly what we 
need. EVP officials also have argued that a professor should not be 
permitted to teach a senior level course during one semester each year 
as a J-1 exchange visitor. Instead, they say, the university should 
invite a different person to teach that course each year, thus 
increasing the number of people who can participate in exchange. Such a 
philosophy ignores the basic concepts of academic teaching and research 
and educational exchange. The number of people at the top of the field 
in any discipline is limited. Professors cannot be used as 
``interchangeable parts'' in senior level courses and research. Equally 
important, having them engage in intermittent exchange generates and 
multiplies exchange opportunities for others. By building strong 
ongoing relationships, we create conduits for young students and 
scholars, both U.S. and international, to travel between and among 
institutions globally.

Policy/Practice Solution--What could be done now
    DOS could simply change its regulations to remove the ``six-/12-
month'' and ``two-year'' bars. These bars are entirely a construct of 
the DOS-EVP, which could be changed easily. The higher education 
community has advocated strongly for such changes, but DOS-EVP 
officials appear to believe that our arguments lack sufficient merit or 
show a misunderstanding of the role of professors and research scholars 
in the Exchange Visitor Program.

NEW HIGHER EDUCATION NON-IMMIGRANT CLASSIFICATION

    Currently there is no non-immigrant classification that meets the 
special needs of higher education and research institutions. Teaching 
and research activities are funded from multiple sources, have varying 
duration, may or may not involve employment, and often involve multiple 
sites. Teachers and researchers need quick and easy ways to navigate 
these opportunities and to travel globally. The H-1B, while useful and 
valuable to academe, is fundamentally an employment classification 
controlled by a cumbersome petition process through DHS. It does not 
permit multiple funding sources (private or public grants, home 
country, home employer, etc.). The J-1 provides useful flexibility, 
but, as described above, DOS has made the J-1 very difficult to use and 
requires non-immigrant intent. This makes travel unreliable and risky.

Legislative Solution
    Create a new non-immigrant classification with the following 
characteristics:

        <bullet>  Is managed in SEVIS directly by the college, 
        university, or research facility, as is the J currently. 
        Institutions would be responsible for proper management. This 
        change would bring personal and study/research data into the 
        SEVIS database, thus contributing to national security and 
        making valuable information available to the government in a 
        form that could be easily ``mined.''

        <bullet>  Does not require non-immigrant intent. As already 
        mentioned, non-immigrant intent hampers our ability to conduct 
        research globally. We need to remove, not create, barriers to 
        travel.

        <bullet>  Can be funded from multiple sources without requiring 
        a ``prevailing wage'' or ``required wage'' only from the U.S. 
        employer. We do not suggest that these faculty and researchers 
        should not have adequate funding, but rather that they be 
        permitted to receive support from usual academic sources and at 
        usual academic rates.

        <bullet>  Does allow individuals to participate in various 
        academic activities with other institutions or organizations 
        with or without reimbursement of expenses or payment of 
        honoraria or other compensation. Professors and researchers 
        will often be asked to lecture or consult at other institutions 
        or may be offered the opportunity to write book chapters, edit 
        books, etc., for a fee. The host institution should be able to 
        authorize such activities as part of and appropriate to usual 
        academic appointments.

        <bullet>  Does permit long-term (five-10 years), continuous, 
        intermittent, or sporadic use without ``bars'' or similar 
        penalties. While the specific limits may require further 
        discussion, a restructured SEVIS should enable educational 
        institutions to manage participation through notices and 
        updates in SEVIS, rather than through lengthy petitions through 
        DHS.

GENERAL WORK PERMISSION AND EXTENDED OPTIONAL PRACTICAL TRAINING FOR F-
                    1 STUDENTS

    F-1 and J-1 students are permitted variations in work permission 
that have special rules and restrictions as to location (on or off 
campus), hours (usually 20 hours per week during school and full-time 
during vacations), and purpose (usually must be related to field of 
study or for severe economic hardship).
    Students need generalized work permission to participate in the 
many service and enhancement opportunities that schools and businesses 
make available to them. For example, Duke Engage (see Appendix 2) 
provides opportunities for students to volunteer their services in 
communities or engage in research or enrichment in the U.S. and abroad. 
The inability to ``work'' causes unexpected problems. Example: An 
international student volunteers to teach during a summer science 
enrichment program for junior high school students. All volunteers are 
given housing and a small stipend of $1,000 to offset living expenses. 
All volunteers must go into the host school's employee system to 
receive the housing and stipend and for insurance and liability 
purposes. The student and school must complete an I-9, which the 
international student cannot do, as he/she does not have work 
permission. The valuable resource of this international student's 
talent and love for science is lost to young U.S. citizens because this 
student cannot ``work'' in the U.S.
    F-1 students also need more Optional Practical Training (OPT) time 
and they need for that time to be made available in usable increments. 
A student can use OPT time either during the educational program or 
after graduation. Motivated students who wish to undertake experiential 
learning and research opportunities during their summer vacations can 
use up most or all of their OPT, leaving little or no OPT time after 
graduation. In addition, the current OPT adjudication mechanisms at DHS 
can waste valuable OPT time by requiring that OPT be used in large 
chunks or by making it impossible to end permission and reclaim unused 
time.
    In 2007, DHS took far more than 90 days to adjudicate summer OPT 
requests. DHS is required by its own regulations to grant immediate 
interim work permission if it takes longer than 90 days to adjudicate 
an application. DHS refused to follow its own regulation, thus causing 
students to lose jobs because they could not report to work on time.

Policy/Practice Solution--What could be done now
    Give F-1 and J-1 students general work permission for 20 hours per 
week while school is in session and full-time during breaks and 
vacations. SEVIS provides a way to control and manage such permission 
through its reporting mechanisms. As they do now with Curricular 
Practical Training (CPT), schools could authorize and report other work 
and issue documents that employers could use to verify employment 
authorization.
    Lengthen the period of OPT and make it easier to manage. DHS is 
already working on revising the OPT rules to lengthen the period of OPT 
from 12 to 29 months. We applaud and strongly encourage this change.
    We also recommend that the OPT no longer be an adjudication action, 
but rather an authorization by the school official properly reported 
through SEVIS. Again, the mechanism already exists to do this for CPT. 
SEVIS could easily incorporate OPT into this process. Handling the OPT 
through SEVIS reporting would also provide more direct and accurate 
information on the work in which students are engaged, thus improving 
database information. We understand that DHS may depend upon the 
additional income currently generated by the OPT adjudications (Form I-
765) to cover other non-OPT costs. This balancing of income against 
quality and speed of service needs closer review.

WORK PERMISSION OPTION FOR F-2 DEPENDENTS

    DHS should amend its regulations to allow F-2 dependents to apply 
for and receive general work permission, as is now the case for the J-
2. Allowing dependents to work not only provides useful additional 
income, but also provides a much greater benefit in giving the F-1 
student and his/her family fuller participation in and understanding of 
the American way of life.
    Thank you Chairman Baird, Ranking Member Ehlers, and Members of the 
Subcommittee for this opportunity to testify and share some of my 
experiences in shepherding international students and scholars through 
the visa process. I appreciate your interest in this important issue 
and welcome the opportunity to answer any of your questions.

APPENDIX 1

    The announcement below shows the commitment of U.S. Duke Alumni and 
of Duke University to the global exchange of students and scholars that 
is essential to America's continued success. [Please see comments (in 
italics) pertinent to the issues before this committee.]

  Bruce and Martha Karsh to Give $20 Million to Support International 
                                Students

    The gift is the Karshes' second in three years to support financial 
aid, bringing their total support for Duke students to $32 million.

Wednesday, January 30, 2008

    DURHAM, NC--Duke University trustee Bruce Karsh and his wife, 
Martha, will give the school $20 million in permanent endowment to 
support undergraduate students from other countries, President Richard 
H. Brodhead announced Wednesday. This gift, which includes $15 million 
for financial aid, is the largest donation devoted to the needs of 
international undergraduates in Duke's history.
    The gift is the second from the Karshes to support financial aid in 
the past three years. In 2005, they committed $12 million principally 
to support Duke's need-based financial aid endowment for domestic 
undergraduate students, bringing their total support for students to 
$32 million.
    ``The Karshes understand the importance of a robust financial aid 
program and the advantages to all Duke students if the best in the 
world are among them,'' Brodhead said. ``In the past, while we have had 
some aid for international undergraduates, we have been open mainly to 
those who could afford Duke. We will now be able to admit many more who 
require financial aid, enriching our community and advancing Duke's 
global connectivity.''
    Most of the gift, $15 million, will be used to establish an 
endowment that provides need-based scholarship grants to international 
undergraduates. Officials said the gift will enable Duke to bring the 
number of aided international undergraduates on campus to around 90. 
Currently, 416 international students are enrolled in Duke's two 
undergraduate schools, the Trinity College of Arts and Sciences and the 
Pratt School of Engineering.
    The balance of the gift will be used to enhance the experience of 
international students who receive aid. Half of this, $2.5 million, 
will establish an endowment to provide enhanced benefits to all aided 
international undergraduates, including financial assistance for travel 
home and an expanded orientation program when they arrive on campus.

[Committee Testimony Note: Having money to go home makes it financial 
possible, but if these students are afraid that they cannot get a visa 
to come back, they may choose not to go home. Both stateside processing 
of visa extensions and a rethinking of non-immigrant intent are needed 
to make these students feel secure enough to travel.]

    The final $2.5 million will establish an endowment to support the 
Karsh International Scholars Program. This new program will provide a 
select group of aided international students with funding for three 
summers of research or research-service opportunities in Durham, 
throughout the U.S. or abroad, including in their home countries. The 
program is expected to support summer stipends for about 20 such 
scholars who will be selected through a competitive process.

[Committee Testimony Note: While the stipend may come from Duke, the 
kinds of activities may require that students go on ``payroll'' 
(perhaps at zero rate) for other purposes such as insurance at the 
summer venue. Such students would have to be employable (``I-9able'') 
even if they were receiving no direct payment. Further, students who 
are afraid that they cannot get visas will be reluctant or unable to 
participate in programs abroad.]

    ``We expect the Karsh International Scholars Program to draw some 
of the most accomplished international students in the world to Duke,'' 
Brodhead said.
    Duke is one of a limited number of schools with a ``need-blind'' 
admissions policy, which means that all U.S. applicants are accepted 
regardless of their ability to pay for college. Duke guarantees it will 
meet 100 percent of demonstrated financial need. Financial aid packages 
combine grants, loans and work-study opportunities after assessing what 
parents and students can reasonably contribute. More than 40 percent of 
Duke's undergraduates receive financial aid to attend the university. 
In December, Duke announced significant enhancements to its financial 
aid program to provide access to a Duke education for lower and middle 
income families. (See http://news.duke.edu/2007/12/financialaid.html/)
    In his 2004 inaugural address, Brodhead identified increasing 
Duke's endowment for financial aid as one of his top priorities. In 
2005, he announced a three-year campaign, the Financial Aid Initiative, 
with a goal of raising $300 million in endowment by Dec. 31, 2008. (See 
http://news.duke.edu/2005/12/financialaid.html) With $15 million of the 
Karshes' gift directed to financial aid endowment, the effort to date 
has raised $260 million, more than 85 percent of the goal.
    ``We heartily endorse Duke's commitment to a `need-blind' policy 
for domestic students, as well as its effort to increase assistance to 
talented students from around the world,'' said Bruce Karsh, a 1977 
Duke graduate. ``In making this gift, Martha and I seek to enhance 
intellectual diversity at Duke and offer the world's best and brightest 
students, regardless of financial circumstances, the opportunity to 
study at one of this nation's top universities. In addition, we hope to 
foster cross-cultural alliances and friendships that will both promote 
the power of education and encourage goodwill toward Duke and the 
United States throughout the world.''
    Bruce Karsh is President of Oaktree Capital Management, LLC in Los 
Angeles. He chairs the Board of Directors of Duke Management Company, 
which is responsible for managing Duke's endowment, and is a member of 
the Duke Board of Trustees' Executive Committee.

John F. Burness
 2008 Office of News & Communications
615 Chapel Drive, Box 90563, Durham, NC 27708-0563

APPENDIX 2

    Following is a sampling of items selected from the Duke web site. 
Note the science and technology components and the global nature of the 
study and research. Visits to the web sites of other major teaching and 
research institutions would show similar global involvement.

http://www.international.duke.edu/

Highlights of Duke Internationalization

        <bullet>  Duke undergraduates study abroad at the highest rate 
        of participation (48 percent) of any of the top ten private 
        research universities.

        <bullet>  Duke offers instruction in 25 foreign languages

        <bullet>  The Duke Class of 2011 is 9.4 percent international

        <bullet>  Duke offers an undergraduate major in International 
        Comparative Studies

        <bullet>  The DukeEngage program offers every student a civic 
        engagement opportunity somewhere in the world

        <bullet>  Duke has five federally-funded Title VI Centers for 
        Foreign Language and Area Studies

        <bullet>  Duke has a federally-funded Title VI Center for 
        International Business Education and Research

        <bullet>  Duke has a Global Health Institute involving all its 
        schools

        <bullet>  Duke has over 300 partnerships with international 
        institutions

        <bullet>  Duke has a world-wide network of over 40 
        international alumni clubs

International News

        <bullet>  Following the Law on Export Controls

           published on Wed., 30 Jan. 2008 17:08:00-0500

           New office helps faculty, staff navigate federal rules

        <bullet>  Dressy Top and Jeans Make for a Ball Supporting 
        Women's Health in Africa

           published on Wed., 30 Jan. 2008 15:45:00-0500

           Duke to hold first Blue Jean Ball Feb. 16

        <bullet>  New Rules for the Road

           published on Wed., 30 Jan. 2008 15:20:00-0500

           New policy improves opportunities for international study

        <bullet>  Bruce and Martha Karsh to Give $20 Million to Support 
        International Students

           published on Wed., 30 Jan. 2008 13:06:00-0500

           The gift is the Karshes' second in three years to support 
        financial aid, bringing their total support for Duke students 
        to $32 million.

        <bullet>  President Addresses Duke Community on Death of 
        Graduate Student

           published on Mon., 21 Jan. 2008 21:35:00-0500

           Open forum to be held Jan. 23 in CIEMAS

        <bullet>  Duke Receives Largest Number of Applications in 
        School History

           published on Wed., 16 Jan. 2008 16:03:00-0500

           Duke's new financial aid policies may have encouraged more 
        students to apply, said Dean of Undergraduate Admissions 
        Christoph Guttentag
http://dukeengage.duke.edu/

                            About DukeEngage

    The DukeEngage program provides funding for Duke undergraduates who 
wish to pursue an intensive civic engagement experience anywhere in the 
world. Through DukeEngage, students apply what they have learned in the 
classroom to address societal issues at home or abroad. Not only do 
students tackle real-world problems, but they develop the valuable 
skills and self-knowledge that evolve from spending time in an 
immersive service experience.
    The Duke Endowment and the Bill & Melinda Gates Foundation each 
contributed $15 million to start an endowment that will enable a 
significant portion of Duke's student body to serve locally, nationally 
and internationally through DukeEngage. Through their service, Duke 
students and the communities they touch will be transformed.
    Any Duke undergraduate who has completed at least two semesters of 
classes is eligible for participation. Duke will cover expenses (travel 
and living) associated with the immersive experience. For students on 
need-based financial aid, Duke will also assume responsibility for the 
``summer earnings'' requirement.
    Students can serve in one of three ways:

        <bullet>  by participating in a Duke-sponsored or organized 
        program;

        <bullet>  by participating in a program that Duke coordinates 
        with an outside provider of student internships or volunteer 
        work in the U.S. and/or abroad;

        <bullet>  by submitting a funding proposal for a unique 
        internship experience of a student's own creation

    In the summer of 2007, nearly 90 Duke students participated in the 
DukeEngage pilot program, serving in Durham (NC), New Orleans, India, 
Kenya, Tanzania, Yemen, Ukraine, Costa Rica, South Africa and other 
locations across the globe.
    [Committee Testimony Note: The domestic work and volunteer services 
raise the ``employment'' issues already mentioned. The international 
travel opportunities raise the stateside visa extension and non-
immigrant intent issues already mentioned.]

                               Discussion

    Chairman Baird. All right. Great. Thank you for very, very 
excellent presentations on all parts.
    I am cognizant that I should address the issue. We extended 
an invitation to DHS to participate, and apparently they were 
unable to, their witnesses, the people who would most likely 
have been participating today on a panel, were unavailable. Dr. 
Ehlers and I were just chatting about the need to bring them in 
at some point, not necessarily even in a formal setting such as 
this, but perhaps some integrated effort between DHS and ICE 
and State and others to address these issues. Because I am not 
sure the coordination there is what it needs to be. Dr. 
Goodman, you certainly look like a suspicious and dangerous 
individual, so I can perfectly understand why they shook you 
down the way they did, but, I mean, somebody else, a more 
upstanding individual shouldn't have to undergo what you did.
    I actually know of a state legislator who was threatened 
with being sent to Guantanamo, and so that is not just 
scholars, but the point you made about scholars, the impression 
that gains, and this is your first impression. You come here 
with great enthusiasm and energy and excited, and you have 
worked your whole life, and as many of you know, the conditions 
under which some of the folks who work their way to come to the 
United States, the opportunities that they had to just carve 
out of scratch sometimes to get where they got, to come here, 
and then the shining city on the hill, the first impression is 
we don't even want you here, pal, is not particularly 
welcoming.
    So we intend to follow up on that, and the point was well 
taken, and your personal example was, is quite valuable.
    I am also cognizant that I don't want this, Mr. Edson, to 
be a kind of an, okay. These folks say this. Why don't you do 
that. It would easy to devolve into that, but what I, let me 
summarize the things that really stand out for me that were 
consistent across the testimony, and if you want to comment on 
that, that is fine. I think what I might want to do is ask, say 
at some point let us try to have a meeting with State and 
figure out what we can do about some of these. Because these 
are things that I have, I was academic before being in this 
job, and I certainly saw it, and I travel a bunch and have and 
periodically as Vern and many members do, we get notices from 
our constituents, please help this person get into this 
conference and maybe we get on the phone, and it becomes 
tedious.
    I should mention we have been joined by Dr. Bartlett from 
Maryland as well. Roscoe, I am sorry I didn't catch you there 
earlier.
    These are some of the things that seem to be, to me, common 
sense, not particularly dangerous to our country by any means 
and imminently doable. And let me just list some of these that 
I heard, either heard or read.
    The issue repeatedly mentioned of the local, domestic 
extension of the visas makes an awful lot of sense to me, and 
I, maybe there are reasons to not do that, but it certainly, if 
there are such reasons, they elude me.
    A second one has to do with this exchange visitor program 
and the two-year bar. Just the nature of, we want to promote 
international travel, international exchange, and to say to 
somebody, we want you to collaborate with U.S. scientists and 
your home scientists, your home institution, but by golly, if 
you go back there to even see if your lab is collecting dust, 
don't expect to come back into the U.S. for two years really is 
a bar. It is a bar to effective research, especially since 
increasingly our research enterprise is an international, 
global operation. It may be a flat Earth, but apparently you 
can fall off of it if you leave the country, our country for a 
little bit. And that shouldn't be the case.
    So I understand from my reading that the intent is to make 
sure that there is an allowance for new blood, so to speak, to 
come into the exchange visitor program, but it is not like the 
academics or scholars are interchangeable. You don't just plug 
and play. Okay. So we got one scholar here. Here. She is gone. 
Here is another one. This person may happen to be one of the 
world's experts in visual system or in cancer or in neutrino 
discovery or whatever. We need them to be able to go back and 
forth.
    So I really for the life of me don't see why that exists 
and why we can't fix it, and my understanding, I think, is that 
that could be an administrative fix rather than statutory. If 
it requires statutory, let us know.
    The, another thing that I know is a real challenge for 
international scholars is this issue of work. We, I am, I quite 
literally wrote the book on internships in the social sciences, 
and I believe that getting people out of the classroom, into a 
work environment is conducive to our economic enterprise but 
also there is just no substitute for being in a business and 
getting your hands dirty and doing stuff. And time and time 
again we see international scholars stymied because they are 
not allowed to work. Well, we are not talking about taking jobs 
from Americans here. We are talking about maybe a post-doc in 
neuro-biology going into a clinic and doing some work that is 
synergistic. They are getting the hands-on skill, and the 
clinic is getting their services. So adjusting that work issue 
really ought to be something we explore.
    And the same is true actually, not just at the post-doc or 
doctorate level, it is also true for many of our undergraduates 
who I think could perform quite well and benefit from it.
    Finally, I understand the immigration intent challenge, but 
my understanding of the literature on lie detection devices is 
that it is not particularly sound, and we are asking for a more 
primitive assessment. I was tempted to ask Ms. Cotten if she 
intends to steal the water bottle from the dais there or not 
and to prove to me that she had no such intent. And what 
evidentiary basis she would use to prove that she has no intent 
to steal the water bottle would be perhaps a fair analogy for 
what some of these folks face.
    So those are the things that strike me, and I know there 
are others as well, but I will give you a chance to just 
address any of those you want, Mr. Edson, and then, but, again, 
don't feel like you have to solve them all. You are not in a 
position to do that, and I don't want it to just all be, if you 
could, though, this would be on successful hearing. We would 
put a letter on the calendar.
    Mr. Edson. Thank you for that tremendous opportunity to 
solve the problems of the world.
    If the Committee has time, a meeting to discuss 
particularly the J-1 and the work issues with our colleagues 
from ECA, the Educational and Cultural Programs, and from DHS, 
that would be very valuable I think, because that is beyond 
what the Bureau of Consular Affairs does.
    On the stateside revalidation, that is an issue we have 
looked at very carefully, and for a long time. We actually 
never did students in the United States. For several years 
business people in certain categories, skilled workers in the 
H-1B Program were able to extend their visas in the United 
States. After 9/11 when the statutory requirement for biometric 
collection was imposed, that happened at the same time when our 
own Inspector General had directed us to close the program due 
to concerns about fraud and our inability to effectively fight 
fraud, perhaps oversimplifying a little bit, but I think part 
of the concern was when an applicant is submitting an 
application like that, you have no chance to call them in for 
interview, so you have to tell them to go abroad to complete 
the application. That immediately tips them off that there is a 
problem, and they will just stay in the United States and never 
actually complete the application.
    So working around that was something that we and our 
Inspector General were both concerned about. We did stop the 
program in July or August of 2004, I believe, and have 
discussed it quite a bit with the business community, since 
that was what preexisted, extensions of it, and continue those 
discussions now. We still have the same security concerns. We 
have more flexibility in biometrics now that we are collecting 
ten prints and collecting them in a way that enables us to, we 
use the word recycle internally, but that is not quite right. 
But it enables us to attach one set of prints to multiple 
applications from the same applicant. And so use that data more 
intelligently I think for the future.
    It is an issue of ongoing discussion and interest I think 
on all sides, and we would welcome continued discussion.
    Most of the non-immigrant visas that are denied, around the 
world, they are denied under 214(b), because the applicant 
appears to be an intending immigrant. The refusal rate has 
actually declined ever so slightly since 9/11, particularly for 
students. It had declined a little more for students than it 
declined for the rest of the world. About 80 percent of 
students are approved for visas now, and the rate is, because 
of the way our data is collected, it is, this is anecdotal, but 
the rate certainly seems to be much higher for students in 
graduate and post-graduate areas, students and scholars.
    We have been concerned about bright-line tests for the 
opposite reason than was discussed before. We were concerned 
that we might deny an opportunity for an applicant to come to 
the United States who doesn't meet some fairly standard-looking 
test. I mean, every day we are going to issue visas to fairly 
poor, young, single people who have never been out of their 
country of nationality before. That is sort of a tourist visa 
example, but that happens every day, and we are cognizant of 
the need to structure whatever guidance we provide on 214(b), 
so it is not only in keeping with the statutory framework but 
doesn't create additional problems.
    It is a screen for non, again, I am stumbling with phrases 
here, but perhaps what you might call non-serious students. It 
would not be right to assume that we are not making proper visa 
decisions most of the time. I think we are, there are a number 
of students who come in to see us and have no clue what they 
will be studying, don't speak English, even though the I-20 may 
indicate that they did, and those sorts of students are being 
screened out with the 214(b). There is a value in that part of 
the law that we would have to look to replacing somehow and 
requiring additional enforcement actions by ICE or something. 
But it is a relatively inexpensive and hard to explain but easy 
to implement tool for that purpose, if that is the continued 
will of Congress.
    Chairman Baird. Thank you. Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    It is really kind of amusing but also sad. Some years ago I 
spent a year in research program in Germany, and since I was 
going to be there more than a year, I had to go down to the 
oustlander omst, which is a foreign office, and register and so 
forth. And I sat there, and I, well, I waited in line for about 
two hours to get a form to fill out. Then after that I had to 
go back to the line to hand in the form.
    And so I spent four hours. When I got back to the institute 
where I was, my German colleagues were absolutely horrified 
that I had been subjected to this. They asked, why didn't you 
tell them you were a professor? I said, well, in America it 
doesn't make any difference. And they said, well, in Germany it 
does.
    But at any rate, after going through that very, very 
bureaucratic process, incredibly bureaucratic, I thought, good 
grief, thank goodness for the good old U.S.A. where we don't 
have that sort of thing. And now we find the tables reversed. 
We have gotten as bad, if not worse than many other countries.
    And I think part of it in dealing with this issue and that 
is why I think the idea proposed that we have a get together 
informally, it is a three-headed monster. It is State, it is 
Department of Homeland Security, and Citizenship and 
Immigration Services, CIS.
    I do have to say, Mr. Edson, you are probably the least bad 
in this situation. Well, that is intended as a compliment. The 
others need even more work than you do.
    One concern I have, and I have visited a number of foreign 
embassies, I have talked to consular officials. They have a 
horrible task to try to decide who should go in, who should 
not. But I think there are some problems there. A case that we 
are working on now, this was a religious music conference in my 
home city at the headquarters of a denomination which is in my 
city. And quite a number of foreigners were not allowed. In 
fact, in one case some 15 of them who were active in the music 
service of their particular churches took a train a 
considerable distance to get to the consular offices and 
watched the consular official not even open their applications 
or their portfolios. Just went right down the line, stamped, 
no, no, no, no, no on all of them and sent them on their way 
and never, they never had a chance to speak. Their portfolios 
weren't opened. And that is unacceptable behavior.
    The other, the one thing that has really bothered me over 
the years is the impossible appeal process of people who are 
denied. Frequently in a situation, people obviously call us and 
say, can you help? We also tell them, well, some things we can 
do, some we can't, but a consular official, I would think that 
a letter from a member of Congress who personally knows the 
people organizing the conference and has asked them about the 
people coming and was there any possibility that they would be 
inappropriate, and we sent a letter to the consular official. 
And still he ignored it. And the review, there is no review. It 
is the same official who denied it is the one who reviewed it.
    There is something wrong with that process. There has to be 
a reasonable appeal process, and I don't mean just for members 
of Congress, but I mean for anyone who wants to appeal it and 
go to someone else.
    And I really think you have to re-examine that. The 
purpose, your purpose is not to keep people out. Your purpose 
is to welcome the good people and keep the bad people out, and 
I think too, far too many good people are prevented from coming 
here for perfectly legitimate reasons, whether academic or 
otherwise.
    So I urge you to really re-examine that carefully. Maybe 
you need more consular officials. I know they are overworked. I 
talked to one once and asked could she specifically say what 
her job was, and she said, I say, no, all day long. When she 
gets to work in the morning, there is a line stretching about a 
block long, people trying to get in to see her, and she has to 
process all those people all day long. And it is very 
difficult. You may need some more people on that as well.
    The one thing I do want to commend the State Department on, 
by the way, is the way you handled the passport crisis last 
year, which has nothing to do with this, but we had one person 
in our office working full time, constantly, every day with the 
people who came to us because they were waiting for their 
passport, they had paid for their cruise, et cetera. And your 
Department did yeoman work in trying to accommodate people. I 
can remember only a couple who could not take the trip because 
it didn't arrive in time. Many of them had heart attacks 
waiting for it because it usually arrived two days ahead of 
time. But you did yeoman work in that, and something that was 
imposed on you from the outset by the Congress and just took 
your time to catch up with it. So I do appreciate what the 
State Department did on that.
    With that, Mr. Chairman, I will pass.
    Chairman Baird. Thank you, Dr. Ehlers.
    Mr. Carnahan.
    Mr. Carnahan. Thank you. I want to commend the Chairman and 
Ranking Member for really bringing this before the 
Subcommittee. It really is essential, I think, to get the best 
and the brightest minds here, no matter where they are coming 
from. We should be a brain magnet to help keep us on the 
cutting edge of science and innovation. You know, that is 
greatly in our country's interest, and the collaborative value 
of our scientists traveling to other parts of the world and 
scientists from other parts of the world coming here is just 
invaluable.
    And I would echo the comments that were made earlier about 
the value of those foreign visitors. Time and time again we see 
foreign leaders, whether it is a prime minister, a member of 
Parliament, or a key business person who has had an education 
or exposure here, they can be some of our most powerful 
spokesmen and allies in terms of improving relations. It is an 
invaluable tool for our foreign policy as well as just our 
practical science and innovation and the advancements.
    I am Vice Chair on the Foreign Affairs Committee of the 
International Organizations and Human Rights Subcommittee, and 
we had a series of hearings about America's image around the 
world. And the bad news is in about a half a century of 
polling, we are at the lowest ever in terms of our image. The 
good news is there is this great reservoir of feeling that the 
ideals of America are something that people aspire to. Freedom, 
human rights, international cooperation. And so there is this 
great reservoir that we can tap into, but I think having this 
scientific exchange, educational exchange is vital to that, and 
I really applaud the efforts of trying to get the right parties 
around the table to see what we can do about this and to the 
extent we need to involve our Foreign Affairs Committee in 
that, I would certainly like to offer their assistance as well.
    Chairman Baird. Thank you, Mr. Carnahan. I think we will 
definitely take you up on that, and your dual committee 
assignments will be tremendously helpful in that regard, 
because as we mentioned, some of these changes can be just done 
administratively. Others may require statutory changes, and we 
will probably try to look for that on the Homeland Security. 
Maybe we will even try to rustle up an appropriator or two, 
because that always helps. Well, it usually helps.
    Mr., Dr. Bartlett.
    Mr. Bartlett. Thank you very much. Thank you for your 
testimony.
    I understand that China produces several times as many 
engineers a year as our country does. That is true?
    Dr. Goodman. Yes.
    Mr. Bartlett. I have heard about six times as many. Is that 
true?
    Dr. Goodman. Yes.
    Mr. Bartlett. Is that also true of science, the physical 
sciences? Do they turn out a lot more physical scientists than 
we do also?
    Dr. Goodman. I believe.
    Mr. Bartlett. I also understand that there are many 
companies in our country that have a very difficult time 
finding these technical people, scientists and engineers, and 
that if they can't find them in our country, they will move 
their company to where these skills exist. Is that also your 
understanding?
    With these realities I am having a little trouble 
understanding why we are really concerned that the scientists 
and engineers might not go back home. Now, I understand we 
don't want illegal aliens here, but the one group that comes 
here that I would be less concerned about than most other 
groups, whether they went home or not, would be those groups 
that we have an acute shortage of in our country. Wouldn't you 
think so?
    Dr. Goodman. Yes, sir.
    Mr. Bartlett. Now, I know the State Department is handed 
the responsibility of making sure that the people who come here 
are likely to go home, but wouldn't you agree, Mr. Edson, that 
the problems of these people overstaying their visas are 
probably less than the problems of most other immigrants 
overstaying their visas? I am having a hard time understanding 
why we are hassling these people after they get here. Because, 
you know, most of these skills we desperately need in this 
country. You cannot for very long contend with a country that 
is producing six times as many engineers and scientists as you 
are producing, and by the way, what percent of our engineers 
are Chinese? As I look at our graduate schools, some of them it 
is somewhere near 50 percent, isn't it? And they are going 
home, I guess, some of them.
    So it is more than the six to one ratio. It is maybe nine, 
ten to one ratio. They are producing that many more engineers, 
and we could presumably, the Chinese engineers in this country 
are going back to China. So I am having some trouble 
understanding why we hassle these people that would be the 
least problem if they overstayed their visa.
    Can you help me understand why I am wrong?
    Mr. Edson. I have kind of a simple role in the process 
because we implement the law. The H-1B, the skilled worker 
category, was exempted from the residence abroad requirement by 
Congress, but the students are required to prove that they 
intend to return home, and so we do ask those types of 
questions during the interview.
    Mr. Bartlett. I understand you need to do that, but, you 
know, hassling them after they are here I am having some 
trouble understanding.
    Mr. Edson. I hassled them overseas.
    Mr. Bartlett. Since we desperately need them. Sir?
    Mr. Edson. No. I am just saying I hassled them overseas. 
DHS hassles them here.
    Mr. Bartlett. Oh, you hassle them in both places. Well, I 
have a problem with hassling them at all since we desperately 
need these skills in our country. I understand that you are 
charged with the responsibility of implementing the law, and 
the law is you are supposed to ask them, are you going home, 
and you are not supposed to let those come here that you have a 
fair suspicion are not going to go back home after their stay 
here.
    But don't you think it is rational that we treat these 
people in a dignified fashion?
    Mr. Edson. Certainly, and we strive to do that. We train 
our officers to do that. We are moving them through fairly 
quickly because we are trying to get to everybody that wants a 
visa to the United States. China is a good example. Over 80 
percent of those students, or about 80 percent of those 
students, will qualify for visas and come into the United 
States. So they are meeting that test.
    Mr. Bartlett. As other countries improved the quality of 
their secondary education, do we have a smaller percentage of 
students seeking to come to our country? Are we still the Mecca 
for higher education, particularly in technical areas? Dr. 
Goodman.
    Dr. Goodman. Thank you, Congressman. We are the world's 
leading destination for students studying outside their 
country. Our market share has declined in the course of a 
decade from about 40 percent to 22 percent, but the pie has 
grown substantially over the course of the decade. I think we 
will continue to be the major destination, partly because no 
other country on earth has the capacity that America has to 
absorb international students. We had 582,000 last year here in 
the United States. They study at just 150 schools, half of the 
do. We have nearly 4,000 accredited colleges and universities, 
so we have a much greater capacity to expand.
    Mr. Bartlett. Thank you, Mr. Chairman. I see my time has 
expired.
    Chairman Baird. Dr. McNerney, as an engineer, 
mathematician, you have long interest in this, and I welcome 
your comments. Thank you.
    Mr. McNerney. Thank you, Mr. Chairman, and I want to thank 
the Committee members or the panel members for testifying 
today.
    You know, the issue is a difficult one, and it is 
complicated by the sort of emotional issues surrounding the 
entire immigration debate, which taints every single aspect of 
that, whether it should or not.
    Dr. Fineberg, thank you for coming in today. Dr. Fineberg. 
In your testimony you suggested that the U.S. should not 
necessarily interview every single applicant but should use its 
resources on the applicants that actually pose some sort of a 
threat. Do you have any specific objective criteria in mind 
when you say that, or are you, yes. Let us leave it at that.
    Dr. Fineberg. We heard from Mr. Edson I thought a useful 
starting point for this, namely those applicants who are 
repeating an application for the same type of visa as 
previously held and who, for whom we have already adequate bio-
documentation, in this case, ten finger prints, already the 
Department has placed these applicants into a category where it 
will not be necessary to re-interview. I would submit that many 
of the categories we have been talking about in terms of 
scientific roles that people play, would put them in a lower-
risk category. My general purpose in making that comment is 
that I believe that if we attempt to apply the same intensity 
of attention to all applicants, we will not be deploying our 
available resources to screen out the high-risk applicants in 
an optimal way. We would be better served in terms of our 
security interests if we could concentrate where the risks are 
higher and allow more of the facilitation of visit for those 
where the risks are truly de minimis.
    Mr. McNerney. Well, what mechanisms are already in place to 
verify that the students and scientists are following the terms 
of their visa, and are those mechanisms sufficient to give 
comfort to DHS?
    Dr. Fineberg. I can't answer that question from my own 
knowledge, sir. I think we probably would want to hear from DHS 
about that and maybe Mr. Edson has information that would be 
relevant to it.
    Mr. Edson. Thank you. The primary change of benefit to our 
consular officers in the field is the student exchange visitor 
information system, the consolidated online system for 
registering and tracking foreign students in the United States, 
because it does enable, the data is input primarily by the 
educational institutions and enables our officers to verify 
that a student is in valid status at the time they apply for 
renewal.
    In fact, this is speculative, but I believe that it is 
possible that that decrease in the refusal rates for students 
that I mentioned might be tied in large part to the SEVIS 
Program that provides such good data and basically eliminated 
improperly completed I-20s, the form that is required for a 
student visa or fraudulent I-20s.
    Mr. McNerney. Well, to the extent that you can say today 
how many documented incidents are there of foreign students or 
scholars entering this country and then taking actions to harm 
us or going home and taking actions to harm us? Are there any 
documented cases or how many?
    Mr. Edson. I don't have that data. That would be data from 
ICE, Immigrations and Customs Enforcement.
    Mr. McNerney. Ms. Cotten, how have the visa delays and 
denials affected the ability of your university to recruit the 
top scientists and engineers that you would like to recruit?
    Ms. Cotten. I can tell you that we would normally recruit 
first because our people are going to international 
conferences. They are recruiting out of the graduate programs 
where we have a lot of international students coming through 
our own programs. And the difficulty we have is once we have 
identified them, can they get here? And so I can't say that we 
have a 50 percent failure rate or an 80 percent failure rate or 
20, but there are always those people that either can't come or 
are delayed. Every year we have people who are identified to 
come on research projects, and for whatever reason they cannot 
get their visa. Normally it is a 214(b), non-immigrant intent 
issue. Or it takes so long that they just give up, and 
everybody says, oh, this is too much trouble. I have got a 
grant. I have to go forward with the grant. I have to find 
somebody else to fill that slot.
    So it is not numbers so much as it is identified 
individuals who are unique, who know just what they know, and 
it is special, and we may not be able to get them.
    And if I could speak to your earlier question regarding how 
we are tracking or managing students when they are here, Mr. 
Edson mentioned the SEVIS System, and as an educational 
institution involved in the SEVIS System, we are required every 
semester to report on every international student, that they 
are enrolled and moving forward in a full-time program. And for 
all of our scholars, the J-1 scholars, we report when they 
arrive, and then we report specifically if we authorize them to 
give a lecture at another school, to do research at a local 
university or beyond. Any of those actions that would normally 
be work actions or changes in their activities, we report as 
those occur, and we put that information into SEVIS.
    Mr. McNerney. So a lot of the responsibilities fall into 
the university.
    Thank you, Mr. Chairman.
    Chairman Baird. I know Dr. Ehlers has to leave shortly, and 
I may have an amendment on the Floor to address. Dr. Bartlett, 
can you stay for a few extra minutes here? I just, one last set 
of questions really.
    Some progress is being made, more progress needs to be 
made, but because of the kind of anecdotal occurrences that 
happen there exists this bad impression in some ways in the 
actual community.
    One of my questions would be what is being done? I think, 
Dr. Goodman, you may have mentioned some of this in your 
written testimony. What is being on a positive, proactive side 
to publicize that there is this nice phrase, I think maybe in 
Ms. Cotten's testimony, the border is closed but the doors are 
open. And in a positive sense, meaning if you can come, you 
know, you can't just walk across the border but basically to 
get the word out that we are doing a better job and that you 
have reason to believe you might be treated better, and what is 
being done to do that, or what should we do to create that?
    And then finally after that question is addressed, if 
anybody has any remaining comments that they feel are 
absolutely essential before we draw the hearing to a close, I 
would welcome those also. I will give Dr. Bartlett and Mr. 
McNerney a chance as well.
    Dr. Goodman. Mr. Chairman, I think you would be really 
delighted when ECA has the chance to meet with you, given the 
outreach that they have tried abroad and given the great 
expansion of both the website and the foreign student advising 
network that they have encourage aboard, and also the results 
of the President delegations that they have taken abroad to the 
key-sending countries. More than anything else those 
activities, the universities in partnership with the 
government, saying that our doors are open and we welcome 
international students, is vital, and it is having an affect.
    Also, in those key markets where the ambassador sees in the 
press a, the anecdote and is able to then say in reality the 
visa issuance rates are X, we are open extra hours, students 
are the head of the line, and to aggressively go after that at 
any point in time is really just critical. And we have to do 
that every day because every day there will be that anecdote or 
that incident.
    With respect to your second question, I did want to suggest 
that we track also the flow of students as Mr. Bartlett was 
asking, around the world, not just to and from the United 
States. I have been struck in the past two years at the number 
of countries, more than a dozen now, that have created special 
green cards or fast track to green cards for the critical 
skills people. If you get a Ph.D. or an M.D. or whatever that 
we need in our country, as soon as you finish you can stay, and 
you can immediately move to either long-term residency status 
or the equivalent of two to four years staying.
    And so as you asked me about the market we are competing 
for and our market share, we are also competing against those 
countries that by legislate fiat are saying critical skills 
people can stay and become permanent residents or citizens.
    Chairman Baird. It is an excellent point. We really need to 
look at that. Unfortunately, the demagoguery that exists around 
the immigration issue right now sometimes obscures the 
legitimate issue that if we have a need for qualified high-
level people to work here and we don't allow those people to 
work here, they will go offshore. And industries will take 
their business offshore, and their capital offshore. And all 
the spin-off jobs these create, I can't remember whose 
testimony it was, I think it was actually maybe yours, Dr. 
Goodman, that the extraordinary number of Nobel Laureates I 
alluded to earlier but also many of the major businesses and 
developments in the last century that made all of our lives 
better came from foreign-born scholars who trained here and 
stayed here and created entrepreneurial enterprises. And what a 
terrible loss it is for all of us if we force those folks to 
leave.
    We also have some rather ironic barriers, for example, if 
even one percent of your company, if you have a startup with 
international, non-U.S. citizens, even though they are living 
here, trained here, if you start up as a non-U.S. citizen as 
one of the startup owners of the company, you may be 
restricted, for example, in terms of what you can apply for in 
terms of U.S. business development assistance. It is rather 
silly actually and we ought to look at those kinds of things. 
And this committee, maybe it was Dr. Bartlett, I don't want to 
put words in your mouth, someone on this committee suggested 
once that there should be a green card stapled to every Ph.D. 
and engineering grad in this country. Some variation of that 
may have some merit.
    Any other comments before my time is closed that people 
want to make that haven't had a chance to? I will also give Dr. 
McNerney and then, or actually Dr. Bartlett, then Dr. McNerney 
a last round here.
    Mr. Edson. If I could, to complement what Dr. Goodman said 
about the public diplomacy, you know, Secretary Rice has a 
personal and professional interest in higher education and has 
made a personal commitment to make it easier for international 
scholars and students to get here. In addition to the formal 
programs that ECA has many of them broad, some of them targeted 
and very creative and unusual, new ways for us, the consular 
sections, we do get them involved, because any time there is 
bad information, it makes our life harder.
    In addition to making it harder for the United States to 
get these people in here, it makes the entire visa process 
harder. So our officers participate in web chats, speak to 
student groups. The Assistant Secretary, my boss, Maura Hardy, 
travels a great deal of the time and always speaks to 
university groups when she travels to try to break down some of 
the poor information.
    Chairman Baird. I think that is very admirable, and I 
should also note historically some of the adverse impressions 
of our country did not, it did not just start six or seven 
years ago or post 9/11. There were things like the closing of 
the international libraries, U.S. libraries internationally 
happened before this Administration's watch. It happened back 
early '90s, and I think that kind of activity had, that was the 
beginning of an adverse impression of the U.S. and has harmed 
us in ways we don't fully appreciate.
    Dr. Bartlett.
    Mr. Bartlett. Thank you. There is a clause in the Lord's 
Prayer that guides me in much of what I do. It is that clause 
that asks the Lord not to lead us into temptation but or to 
deliver from temptation, depending upon the version that you 
are reading. Like it is probably not fair to ask the goat to 
guard the cabbage patch, because he has a conflicting interest. 
His interest to be responsive to your wishes and the temptation 
that the cabbage offers him.
    I say that because I don't want to be accused of profiling 
in what I say next, but I would suggest that there is a big 
difference between a student coming here from Iran or North 
Korea, and I hope they come from North Korea, by the way, or a 
student coming from Australia or Canada or England.
    Referencing that clause in the Lord's Prayer, I just think 
that it is very unfair to put these students from countries 
like, and maybe China for the future or Iran or North Korea, in 
a situation where they have conflicting loyalties.
    So I am asking do we treat students coming from countries 
like Australia, England, or Canada differently than we do 
students coming from these other countries? You see from a 
national security, from a national interest perspective, I 
don't care whether those students from Australia, Canada, and 
England go home or not. I am concerned about the students, and 
because of my concern that we should not unfairly put people in 
compromising situations, where they would have conflicting 
loyalties. I just don't think it is fair. Okay. It is not 
profiling. I just don't think it is fair.
    I am really concerned about the students from these other 
countries where if they stayed and got a job where there was 
some knowledge of a national security interest, that they 
would, it is not fair to them. Are we treating these students 
differently? I hope we are.
    Mr. Edson. In the visa process, yes. The students from 
countries that are state sponsors of terrorism we are required 
by law to send them back to Washington and----
    Mr. Bartlett. And China is not one of those, are they?
    Mr. Edson. China is not one of those, but China is----
    Mr. Bartlett. But don't you think that----
    Mr. Edson.--targeted under the Mantis Program.
    Mr. Bartlett.--this student from China is put in a 
compromising situation? These are people with an enormously 
proud heritage. When my ancestors were Barbarians, running 
around the continent of Europe and the British Isles, they had 
a really advanced civilization in China. Don't you think it is 
unfair to put them in a situation where there is a conflict of 
interest? Even if they are not the sponsor of terrorism. Just 
as a human consideration, unfair to put them in that situation.
    Mr. Edson. We are aware that their government poses 
particular challenges in certain security areas, and they are 
vetted in that way in the visa process. I can't speak to the 
end of the process when they are in the United States, which is 
a DHS function.
    Mr. Bartlett. I am concerned about our national security. I 
am even more concerned that we treat people fairly, and I think 
putting a person in a situation where they have conflicting 
interests is unfair, not the right thing to do. So I would hope 
that this is a part of our policy when we are admitting these 
students and watching them after they are here and determining 
whether they can return promptly or not, wouldn't you think?
    And if we don't have different rules, either written or 
unwritten that we play by, don't you think we should?
    Mr. Edson. In the visa process we do screen. China is one 
of those countries that is of targeted interest for issues 
related to sensitive technology, and so we do screen them in a 
different way in the visa process when they are overseas.
    Mr. Bartlett. Well, with our acute and growing need for 
more people in these technical areas, I would hope that our 
immigration policies could be helping to help solve this 
problem rather than impeding the solution to the problem.
    Thank you very much, Mr. Chairman.
    Chairman Baird. Dr. Bartlett, thank you.
    Dr. McNerney, any other comments or questions?
    Mr. McNerney. Thank you very much. Again, this has been a 
very important hearing, and I think we need to continue this 
sort of discussion. Having gone through the rigors of a Ph.D. 
program, I understand how important it is to have visiting 
scholars. They contribute in ways that go beyond what you are 
studying, and they open up doors for you to go overseas and so 
on and so forth. So I want to make sure that we do open those 
up.
    But I think some prior discussions with Chairman Baird, 
there is some very specific recommendations that would be 
helpful and that could turn into legislation. I hope to work 
with the Chairman on that. You have actually elaborated on 
those, a couple of things.
    And also, we need to take into consideration our national 
security, both in terms of whatever terrorist threat there may 
be, but with the economics and the globalization. So we have a 
number of things to balance here, and this is the type of 
discussion that is going to help open up that type of thinking 
that allows us to move forward on a general basis with these 
sort of things.
    So thank you very much for your time and your work, and 
with that I will yield.
    Chairman Baird. Thank you very much. I will just close with 
a brief anecdote from my experience as a professor.
    I was privileged one evening to join a number of the honor 
society inductees at my university, and they asked the students 
to comment on what was the single most important aspect of 
their academic experience. This was at Pacific Lutheran 
University where I used to chair a department. And there were 
maybe 45 or so young people there, and the intriguing thing was 
that every single one virtually, maybe two or three exceptions, 
listed study abroad. And it became such that it was so 
repetitive, you know, the next one would get up, my time 
studying abroad.
    And I say that because what a tragedy it would be, we tend 
to think that, well, we are just keeping out potential dangers 
to our country, but if other countries reciprocate, then the 
ability of our young people to study abroad, which is the 
opposite direction than what we have talked about today but 
equally important, if they feel harassed or unsafe or 
unwelcome, we, too, will lose what, for the very brightest 
students, the top, cream of the crop at our institution, it 
wasn't the class they took from Dr. Baird, not surprisingly. It 
was their opportunity to travel and learn from a different 
culture.
    And that, we don't want to lose that for our students, and 
we certainly don't want to lose that for other students, and we 
desperately don't want to lose that for other scholars. So your 
testimony and comments today are tremendously helpful to us, 
and I want you to know that I am personally committed to this, 
as is Dr. Bartlett and Dr. Ehlers and Dr. McNerney and the rest 
of this committee. And we will follow up. We will work 
together, perhaps in a less formal setting, to see what can be 
done, again, with the aforementioned agencies, et cetera. And 
hopefully make further progress beyond what has already been 
made. These things don't happen overnight, but we are committed 
to establishing that, and I feel good because I have a sense 
that as I travel internationally and meet with other people, I 
can both acknowledge some of the frustrations of the past but 
share with them the positive gains that have been made and the 
commitment that I am hearing today to make further gains.
    So I am grateful for your testimony and your leadership on 
this. I thank my colleagues on the Committee, our Committee 
staff for putting forward and together such a great hearing, 
and with that this committee stands adjourned. Thank you very 
much.
    [Whereupon, at 3:30 p.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                PROMOTING SECURE BORDERS AND OPEN DOORS

    A National-Interest-Based Visa Policy for Students and Scholars

             NAFSA: Association of International Educators
    It is now recognized at the highest levels of government that 
America's strong interest in robust educational and scientific exchange 
is ill served by the visa system that is currently in place. This 
situation is not the result of ill will; no one is to blame. Every 
control instituted since 9/11 has seemed, in itself, to add a 
reasonable--even necessary--measure of protection. But in their 
totality, these controls are hindering international student and 
scholar access to the United States to an extent that itself threatens 
national security. Our current visa system maximizes neither our safety 
nor our long-term national interests in scientific exchange and in 
educating successive generations of world leaders--interests that the 
United States has recognized for more than half a century.
    There are four problems: the absence of policy, of focus, of time 
guidelines, and of balance between resources and responsibilities.
    In a policy vacuum, every control is a good one, and delay or 
denial is the safest course. The State Department's visa adjudicators 
require an operational policy that articulates not only our interest in 
control, but also our interest in openness, and that guides them in how 
to find this crucial balance. Responsibility for articulating such a 
policy lies with the Department of Homeland Security.
    Far too many adjudicatory and investigative resources are wasted on 
routine reviews of low-risk applications. This not only frustrates and 
delays visa applicants unnecessarily; it also precludes the allocation 
of resources pursuant to risk analysis. The practice of across-the-
board visa interviews has led to millions of 90-second interviews of 
dubious security value, which clog the system while precluding serious 
scrutiny where it is needed. The practice of sending virtually all visa 
applications in the sciences to Washington for security clearances 
(``Mantis'' reviews) reverses the time-tested policy of requiring such 
clearances only when indicated by the identity of the applicant, the 
applicant's nationality, and the specific field of advanced science or 
technology in question; the number of clearances requested has 
increased from about 1,000 in 2000 to more than 20,000 in 2003. The 
requirement that every Arab and Muslim adult male undergo a Washington 
security check (``Condor'' review) has created an additional flood of 
clearance requests. Low-risk frequent visitors, and those seeking re-
entry after temporary travel abroad, are often required to run the same 
gauntlet every time they seek re-entry.
    The ``Mantis'' and ``Condor'' clearance processes lack time 
guidelines and transparency. Bureaucrats are like the rest of us. They 
make decisions when forced to by a deadline. Absent a ``clock,'' cases 
can languish without resolution, and the applicant has no recourse for 
determining the application's status.
    Furthermore, these systems have been put in place without reference 
to whether or not resources exist to implement them. In no foreseeable 
circumstance will enough resources be available to effectively support 
visa processing as it is currently being done. Balancing resources and 
responsibilities is the essence of policy. Without this balance, our 
visa-processing system will be unable to serve the national interest in 
providing timely access for legitimate visitors.
    We believe that our nation's leaders share our interest in fixing 
these problems. Following are our recommendations for doing so.

                PROMOTING SECURE BORDERS AND OPEN DOORS

Recommendations for a National-Interest-Based Visa Policy for Students 
                              and Scholars

             NAFSA: Association of International Educators
1. Provide effective policy guidance.

        <bullet>  Congress and the Department of Homeland Security must 
        act to make ``Secure Borders--Open Doors'' the effective policy 
        guidance for the Department of State.

IMPLEMENTATION STATUS: The Department of Homeland Security (DHS) and 
the Department of State (DOS) have yet to issue a joint statement that 
clearly articulates visa policy--i.e., that would turn ``Secure 
Borders, Open Doors'' into operational policy. In January 2006, DOS and 
DHS announced a three-part joint vision, ``Secure Borders and Open 
Doors in the Information Age,'' to guide future development of 
solutions to improve border security while still welcoming visitors to 
the United States. However, until this vision is translated into an 
operational policy, existing disconnects on visa policy will continue 
within DHS and between DHS and DOS.

2. Focus efforts on those who require special screening.

        <bullet>  Give consulates discretion to grant waivers of 
        personal appearance based on risk analysis, subject to State 
        Department policy guidance and approval, as recommended by the 
        State Department Inspector General in December 2002.

IMPLEMENTATION STATUS: Under the terms of the 2004 Intelligence Reform 
Act, the Secretary of State no longer has the authority to implement 
this recommendation, although consular officers do retain some 
authority to waive this requirement under very limited circumstances. 
DOS gives priority for personal interviews to students and scholars and 
posts the appointment wait times for individual consulates online. DOS 
continues to evaluate the use of digital video-conferencing technology 
to help alleviate interview delays in countries with few U.S. 
diplomatic posts, as well as to ease the burden on applicants who must 
travel long distances. DOS plans to utilize computer software to allow 
the transfer of fingerprints captured at the time of the original visa 
application to a renewal application, to alleviate the need for 
repetitive personal appearances.

        <bullet>  Refine controls on advanced science and technology. 
        In consultation with the scientific community, define the 
        advanced science and technology to which access must be 
        controlled, and empower consular officers to exercise 
        discretion on non-sensitive applications where neither the 
        applicant nor the applicant's country present concerns.

IMPLEMENTATION STATUS: NAFSA is unaware of any progress in returning 
the Technology Alert List (TAL) to its original intent of controlling 
access only to advanced technology (although it is difficult to know, 
given that the list is now classified). There is an interagency 
process, headed by DHS, which discusses, among other issues, the 
application of the TAL. DOS is also spending more time training 
incoming consular officers about the TAL, and is also providing 
additional training to officers in the field.

        <bullet>  Avoid repetitive processing of those who temporarily 
        leave the United States. Institute a presumption that a 
        security clearance is valid for duration of status or program, 
        assuming no status violations. Any necessary reviews within 
        this period should be fast-tracked.

IMPLEMENTATION STATUS: In February 2005, DOS extended Mantis clearance 
validity for international students (F visa) for up to the length of 
the approved academic program, to a maximum of four years, and for 
exchange visitors (J visa), temporary workers (H visa), and 
intracompany transferees (L visa), the clearance has been extended for 
the duration of their approved activity, to a maximum of two years. 
NAFSA has asked DOS to consider extending validity for exchange 
visitors (J visa) for the duration of their approved activity, to a 
maximum of five years.

        <bullet>  Avoid repetitive processing of frequent visitors. 
        Establish a presumption of approval for those who have 
        previously been granted U.S. visas and who have no status 
        violations.

IMPLEMENTATION STATUS: No system has been put in place to avoid the 
repetitive processing of frequent, well known visitors. However, in 
June 2005, visa validity for Chinese students and exchange visitors was 
extended from six months, multiple entries to 12 months, multiple 
entries.

        <bullet>  Expedite processing and save consular resources by 
        incorporating pre-screening or pre-certification of students 
        and scholars. This could be accomplished in many ways. Options 
        include: (1) sending countries agreeing to pre-screen 
        applicants in order to facilitate their citizens' entry into 
        the U.S.; (2) sending universities providing identity 
        verification under agreements executed with consulates; and (3) 
        the State Department utilizing its own overseas advising 
        centers to ensure that all necessary documents are in order 
        prior to applications being sent on to the consulates.

IMPLEMENTATION STATUS: NAFSA has seen no movement on this 
recommendation.

3. Create a timely, transparent and predictable visa process.

        <bullet>  The White House should institute standard guidelines 
        for interagency reviews of visa applications:

                -  Establish a 15-day standard for responses to the 
                State Department from other agencies in the interagency 
                clearance process.

                -  Implement a 30-day standard for the completion of 
                the entire interagency review process, including the 
                response to the consulate's security clearance request.

                -  Flag for expedited processing any application not 
                completed within 30 days, and advise the consulate of 
                the delay and the estimated processing time remaining.

                -  In the case of applications not completed within 30 
                days, the applicant, or the program to which the 
                applicant seeks access, should be able to inquire about 
                the application's status, and the estimated processing 
                time remaining, via a call-in number or e-mail inbox.

                -  Establish a special review process to resolve any 
                cases not decided within 60 days.

IMPLEMENTATION STATUS: DOS has streamlined this process by moving from 
a paper-based system to electronic transmission of clearance requests--
meaning that clearance requests no longer get ``lost'' as they did in 
the previous system. DOS has also worked with the other agencies 
involved to speed up the time in which the overwhelming majority of 
these requests are processed. While there is still little transparency 
in the process for individuals whose clearances are not processed 
within 30 days, the reported average processing time for Mantis cases 
continues to be less than 14 days.

        <bullet>  Make ground rules predictable by imposing them 
        prospectively, not on those already in the application 
        pipeline.

4. Provide the necessary resources, and manage within them.

        <bullet>  Congress must act to bring the resources appropriated 
        for the consular affairs function into line with the increased 
        scrutiny of visa applications that Congress demands, and the 
        State Department must manage within the available resources.

        <bullet>  Adequate resources must be provided to ensure the 
        inter-operability of data systems necessary for the efficient 
        functioning of the interagency review process.

IMPLEMENTATION STATUS: Since 9/11, Congress has increased funding for 
consular officers, and over the past six years, DOS has created 570 new 
consular Foreign Service positions. DOS also continues to automate 
obsolete visa processing systems. DOS has developed a fully electronic 
visa application, and DOS and DHS have successfully piloted a 
``paperless'' visa application system, with plans to introduce this by 
early 2008. DOS and DHS, working with other agencies, also plan to 
standardize screening criteria and create a virtual clearinghouse of 
unified data.

NAFSA Visa Recommendations issued: April 2004

Implementation status last updated: January 1, 2008

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                   <all>


</pre></body></html>
